      Room 7898 C HCHB
1401 Constitution Avenue, N.W.
   Washington, D.C. 20230
       www.oig.doc.gov
DOC OIG SAR SEPT 09.qxd   12/1/09   2:52 PM   Page i




                                 Office of Inspector General

                               Semiannual Report to Congress



                                                       September 2009
DOC OIG SAR SEPT 09.qxd       12/1/09       2:52 PM       Page iii




                                                                  CONTENTS

              From the Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


              Major Challenges for the Department . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

                    Decennial Census: Mitigate Issues with 2010 Decennial

                    While Addressing Future Census Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

                    Information Technology Security: Continue Enhancing the Department’s Ability to

                    Defend Its Systems and Data Against Increasing Cyber Security Threats . . . . . . . . . . . . . . . . . . . . . . . 4

                    NOAA Environmental Satellites: Effectively Manage Technical, Budgetary, and Governance

                    Issues Surrounding the Acquisition of NOAA’s Two Environmental Satellite Programs . . . . . . . . . . . . . 5

                    Recovery Act: Meet the Challenges of Accountability and Transparency with

                    Compliance, Reporting, Spending, Oversight, and Effective Program Performance . . . . . . . . . . . . . . . 5

                    U.S. Patent and Trademark Office: Address the Patent Office’s Resource and

                    Quality Control Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                    Other Issues Requiring Significant Management Attention . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


              Recovery Act Oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


              Work in Progress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


              Agency Overviews . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

                    Department-Wide Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

                    Bureau of Industry and Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

                    Economics and Statistics Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

                    National Institute of Standards and Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29 

                    National Oceanic and Atmospheric Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

                    National Telecommunications and Information Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33


              Office of Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

                    Office of Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

                    Other OIG Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

                    Tables and Statistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40

                    Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 48

DOC OIG SAR SEPT 09.qxd   12/1/09   2:52 PM   Page iv
DOC OIG SAR SEPT 09.qxd   12/1/09    2:52 PM    Page 1




                                         FROM THE

                                    INSPECTOR GENERAL 

              We are pleased to present the Department                        The oversight demands of these two programs have
              of Commerce Office of Inspector General’s                       had a major impact on our workload and staffing. To
              Semiannual Report to Congress for the 6 months                  help us respond effectively to these and other
              ending September 30, 2009.                                      challenges, we commissioned the National Academy
                                                                              of Public Administration (NAPA) to conduct an
              This report summarizes the work we completed and                organizational assessment of our office. While the
              initiated during this semiannual period on a number             assessment identified areas for improvement, it also
              of critical departmental activities. Over the last 6            highlighted several of our “core strengths,” including
              months, our office issued 13 audit, evaluation, and             our reputation for independence, our high perceived
              inspection reports addressing programs overseen by              value by Congress and other stakeholders, and our
              the Bureau of Industry and Security, Census Bureau,             staff. As we begin implementing NAPA’s
              National Institute of Standards and Technology,                 recommendations, I am confident that we can support
              National Telecommunications and Information                     the Administration’s directive for transparency and
              Administration, and National Oceanic and                        accountability more effectively than ever.
              Atmospheric Administration. Our investigative
              activities this reporting period resulted in six criminal       We look forward to working with the Department
              convictions and more than $58 million in fines,                 and with Congress in the months ahead to meet
              restitution, and judgments.                                     the many challenges facing the Department. We
                                                                              thank the Secretary, senior officials throughout the
              As expected of an activity of such significance and             Department, and members of Congress and their
              substantial cost, the 2010 Census was a major focus             staffs for their support of our work during this
              of our efforts (including Congressional testimony, in           reporting period and for their receptiveness to our
              September) and will remain so, particularly as Census           recommendations for improving Commerce
              Day (April 1, 2010) approaches. Our Recovery Act                operations.
              oversight work, another high-visibility area for us,
              centered on a risk assessment of Commerce’s
              Recovery Act programs, development of a risk-based
              oversight plan, and pre-award operational reviews of
              Recovery Act grants.




                                                                          1
DOC OIG SAR SEPT 09.qxd   12/1/09   2:52 PM   Page 2
DOC OIG SAR SEPT 09.qxd   12/1/09    2:52 PM   Page 3




                                 MAJOR CHALLENGES

                                FOR THE DEPARTMENT

              The Reports Consolidation Act of 2000 requires
              inspectors general to identify the top management                     Top 5 Management Challenges
              challenges facing their departments. For FY 2010,               1. Decennial Census: Mitigate Issues with
              Commerce OIG has identified five top management                    2010 Decennial While Addressing Future
              challenges that require significant attention from the             Census Challenges
              Department. Of these, three are continued with
                                                                              2. Information Technology Security:
              updates from our November 2008 Top Management
                                                                                 Continue Enhancing the Department’s
              Challenges Facing the Department of Commerce report:
                                                                                 Ability to Defend Its Systems and Data
              meeting the requirements of an accurate decennial
                                                                                 Against Increasing Cyber Security Threats
              census, continuing to improve the Department’s
              ability to cope with cyber threats, and managing the            3. NOAA Environmental Satellites: Effectively
              acquisition of National Oceanic and Atmospheric                    Manage Technical, Budgetary, and Governance
              Administration’s (NOAA) environmental satellites.                  Issues Surrounding the Acquisition of NOAA’s
              The challenge to meet Recovery Act requirements is a               Two Environmental Satellite Programs
              new addition, as is the U.S. Patent and Trademark               4. Recovery Act: Meet the Challenges of
              Office’s (USPTO) resource and quality control                      Accountability and Transparency with
              challenge. OIG has also identified five additional                 Compliance, Reporting, Spending,
              challenges that pertain to Commerce’s internal                     Oversight, and Effective Program Performance
              processes and organization. All of these challenges are         5. U.S. Patent and Trademark Office: Address
              discussed below.                                                   the Patent Office’s Resource and Quality
                                                                                 Control Issues

              1. Decennial Census: Mitigate Issues with
                 2010 Decennial While Addressing                            With a life-cycle cost estimate now projected to total
                 Future Census Challenges                                   $14.7 billion, the 2010 census is a massive
                                                                            undertaking. The most costly operation of the
              Over the past year, OIG reports and congressional             decennial is nonresponse follow-up. In this
              testimony have detailed the challenges faced by the           operation, estimated to cost $2.7 billion, census
              Census Bureau as it executes the 2010 decennial               takers must visit every household that does not return
              count of U.S. residents. The mission of the 2010              a census form to record answers to the questions on
              decennial census—to succeed in counting each of the           the form. To accomplish this, the bureau must hire
              over 300 million people in more than 130 million              and train more than 450,000 temporary workers, as
              households in the United States only once, in the             well as lease and equip 494 local offices. While the
              right place—is a daunting task. Census has built an           bureau cannot predict with certainty the public’s
              extensive communications campaign and partnership             response rate and thus the total number of
              program to spread the message of a prompt and                 households that will have to be visited in non-
              accurate decennial response, but it ultimately must           response follow-up, costs will increase by tens of
              rely on the American public to return decennial               millions of dollars for every percentage point of the
              forms without delay.                                          public that census takers have to visit.


                                                                        3
DOC OIG SAR SEPT 09.qxd    12/1/09    2:52 PM    Page 4




              Major Challenges for the Department                                   September 2009—Semiannual Report to Congress



              The bureau’s ability to manage its enumeration                   from the 2010 process and develop an innovative,
              operations effectively hinges on its operations control          flexible, cost-effective, and transparent approach to
              system. The system was originally a component of                 the 2020 census.
              the Field Data Collection Automation (FDCA)
              contract, which was intended in part to develop
              handheld computers for nonresponse follow-up
                                                                               2. IT Security: Continue Enhancing the
              operations. After the decision was made in April
              2008 to abandon use of the handhelds for non-                       Department’s Ability to Defend Its
              response follow up and move to paper, Census                        Systems and Data Against Increasing
              assumed responsibility for developing a paper-based                 Cyber Security Threats
              operations control system (PBOCS). Described by
              the bureau as the “nerve center” of its field offices, the       Cyber attacks and security threats are on the rise, and
              PBOCS is used to define enumerator assignments                   the Department must improve its ability to cope with
              and to provide current information on enumerator                 them. Commerce continues to work to enhance
              productivity. Along with nonresponse follow-up                   security but, while progress has been made, there is
              actions, the PBOCS is also needed to support                     still more to be done.
              operations such as those in rural areas where Census
              leaves a form for households to mail back (known as              While IT security has numerous facets, OIG has
              update/leave), interviews to enumerate group                     focused on the adequacy of implemented controls
              residences, and counting at transient locations such             and the certification and accreditation (C&A)
              as parks or campgrounds.                                         processes, including continuous monitoring, for the
                                                                               approximately 300 systems at the Department. Over
              Census is on a very tight schedule to complete the               the years, our work has shown that the Department
              PBOCS. The system must work compatibly with                      and USPTO must improve these processes to ensure
              other 2010 census systems and run within the                     that they consistently confirm system and data
              infrastructure provided by the FDCA contractor,                  security. This includes improving the assessment of
              adding significant integration and deployment                    security controls and promptly correcting significant
              challenges. Census will be conducting a load test of             vulnerabilities. Continuous monitoring is critical to
              the PBOCS, although given the highly compressed                  maintaining adequate security and requires an
              schedule, the system will undergo less testing than              ongoing awareness of changing threats and
              desirable. Once deployed, this system has no margin              vulnerabilities, plus an understanding of
              for error. Without an effectively functioning PBOCS,             modifications made to IT systems, so that needed
              hundreds of thousands of nonresponse follow-up                   enhancements can be made to security controls.
              enumerators may not be able to receive their
              assignments, and bureau management may not be                    Other key aspects of the Department’s IT security
              able to monitor the operation’s progress. Such                   challenge include maintaining and enforcing effective
              problems, for which no documented contingency                    IT security policies and preventing, detecting, and
              plans currently exist, would seriously jeopardize the            responding to IT security incidents. The Department
              decennial schedule and further drive up decennial                also must ensure continuity of operations, disaster
              costs. As a core requirement presenting a high level of          recovery, and IT contingency plans are relevant,
              uncertainty so late in the decennial life cycle, the             maintained, and tested so they can be used
              PBOCS represents one of the most significant                     successfully in the event of a disruption. Because
              decennial challenges facing the Department.                      contractors provide support to all aspects of IT
                                                                               security at Commerce, the Department needs to
              Calendar year 2010 is also a critical time for the 2020          make certain they receive clear direction and close
              census. The bureau must begin to develop its plans               oversight. The daunting challenge of IT security is
              for 2020 even though its workforce is already                    increased by the decentralized administrative
              stretched thin by 2010 operations. The bureau must               management structure of the Department, which
              work with the Department to apply lessons learned                gives its Chief Information Officer limited authority


                                                                           4
DOC OIG SAR SEPT 09.qxd    12/1/09    2:52 PM    Page 5




              September 2009—Semiannual Report to Congress                                       Major Challenges for the Department



              over the daily management of IT security operations              In the spring of 2009, an independent review board
              of Commerce’s operating units.                                   was convened to examine NPOESS’ progress. The
                                                                               board found that the program as currently designed
              To successfully address the IT security challenge, the           has a low chance of success, that the oversight
              Department needs a highly skilled and capable IT                 provided by these three agencies has been ineffective,
              security workforce. Our recent audit found that                  and that the cost estimate is too low. In order to meet
              Department management has not devoted sufficient                 the nation’s future weather forecasting and climate
              attention to this workforce, including ensuring                  monitoring needs, the Department of Defense,
              adequate training and professional development. We               NASA, and NOAA are working with the White
              also found a lack of formal assignment of                        House Office of Science and Technology Policy to
              accountability for IT security and inconsistent efforts          restructure the program, including the governance
              toward obtaining appropriate clearances for IT security          provided by the three agencies. Further delays in the
              personnel. A key recommendation for enhancing the                NPOESS program could result in considerable gaps
              skills of the IT security workforce was that the                 in climatological data and have serious consequences
              Department require IT security certifications for                for the safety and security of the United States.
              personnel with significant IT security responsibilities.
                                                                               Budget increases, capability reductions, and delays
                                                                               have also plagued the GOES-R project. The
              3. NOAA Environmental Satellites:                                projected cost has increased from $6.2 billion to
                 Effectively Manage Technical, Budgetary,                      $7.7 billion, a major sensor was removed, the
                 and Governance Issues Surrounding                             number of satellites to be purchased was reduced
                                                                               from four to two, and the launch readiness date for
                 the Acquisition of NOAA’s Two
                                                                               the first two satellites has slipped by 6 months. Our
                 Environmental Satellite Programs                              2007 evaluation found that weaknesses in oversight
                                                                               contributed to these problems. Since our review,
              NOAA is modernizing its environmental monitoring
                                                                               NOAA has finalized a GOES-R management control
              capabilities, in part by acquiring two critical satellite
                                                                               plan and the Department has been working on a new
              systems: the National Polar-orbiting Operational
                                                                               oversight policy. NOAA and the Department still
              Environmental Satellite System (NPOESS) and the
                                                                               need to develop effective interim oversight
              Geostationary Operational Environmental Satellite-R
                                                                               procedures to manage costs and prevent further
              Series (GOES-R). Highly complex acquisitions like
                                                                               setbacks.
              these have a history of cost overruns, schedule delays,
              and reduced performance capabilities. The NPOESS
              and GOES-R projects have already experienced these
              problems. They require careful management and
                                                                               4. Recovery Act: Meet the Challenges
              oversight to minimize further disruption to the                     of Accountability and Transparency
              programs and to prevent any gaps in satellite coverage.             with Compliance, Reporting,
                                                                                  Spending, Oversight, and Effective
              The NPOESS project, managed jointly by NOAA,                        Program Performance
              NASA, and the Department of Defense, has faced
              several setbacks. The initial project plan called for the        The American Recovery and Reinvestment Act of
              purchase of six satellites at a cost of $6.5 billion, with       2009 requires an unprecedented degree of
              a first launch in 2008. By mid-2006, problems with a             transparency and accountability and sets out specific
              key sensor raised costs and delayed the date of the first        responsibilities for agency staff in managing Recovery
              launch to 2013, even as the number of satellites in the          Act funds and program operations. Commerce
              system was reduced from six to four. By December                 operating units must spend funds expediently with
              2008, the NPOESS total life-cycle cost was revised to            little time to prepare for the many new and expanded
              $14 billion. NOAA announced in March 2009 that it                programs, grants, and contracts established under
              would delay the first launch to 2014 because of                  the act.
              continuing problems with the sensor.


                                                                           5
DOC OIG SAR SEPT 09.qxd   12/1/09    2:52 PM    Page 6




              Major Challenges for the Department                                 September 2009—Semiannual Report to Congress



              This pressure to distribute funds quickly to                   would be better positioned to administer the granting
              communities and businesses significantly increases             of patents and registering of trademarks.
              the risks for fraud, waste, and abuse in both Recovery
              Act-funded activities and Commerce’s traditionally             Since 2000, however, the length of time to process a
              funded operations. Commerce grant and contract                 patent has grown from around 25 months to over
              officials overseeing the programs must implement               32 months and the backlog of applications waiting to
              procedures to ensure that Recovery Act programs                be reviewed has grown from approximately 308,000
              meet requirements in areas such as the use of                  to more than 770,000. These long waiting periods for
              competitive procedures and contract types, Buy                 patent review and the large number of pending
              American provisions, and the National                          applications can negatively affect innovation if new
              Environmental Policy Act.                                      technologies are not invented, invested in, and
                                                                             disclosed in a timely fashion.
              Federal agencies receiving Recovery Act funds must
              report key information such as awards, obligations,            USPTO faces the immense challenges of addressing
              outlays, and major activities on a weekly basis. Fund          these persistent problems of long waiting periods and
              recipients need to report on the projects and activities       application backlogs while also ensuring that quality
              created and their completion status, as well as job            remains integral to the patent review process. In
              creation and retention. Ensuring accurate and timely           addition to reforming and reengineering the various
              data poses challenges, such as the manual nature of            components of the patent application process,
              the reporting processes, the need to maintain data             USPTO’s IT systems need to be updated to provide
              integrity, the risk of inconsistent or incomplete              greater management oversight and ability to process
              reporting from dissimilar operating units, and                 complex cases. Recent initiatives included hiring
              the brief time allotted for their review of recipient          additional patent examiners to address the backlog;
              reporting. As funds are distributed, Commerce                  however, simply adding to the workforce without
              must ensure that they are used effectively for their           making improvements to processes and quality
              intended purpose.                                              control may not be enough.

              Finally, National Telecommunications and                       Further, USPTO must address challenges with its
              Information Administration’s (NTIA) Broadband                  funding mechanisms and fee structure. USPTO is
              Technology Opportunity Program (BTOP) aims to                  funded entirely by application and maintenance fees
              award approximately $4.5 billion in grants in less             paid by patent and trademark applicants and owners.
              than 18 months, a level of grant activity no                   Congress is also involved in this process by setting
              Commerce operating unit has ever before                        many of the fees legislatively and establishing a
              undertaken. Among its challenges in the near term,             ceiling, through the appropriations process, as to the
              BTOP needs a rigorous review process to make sure              maximum amount of fees USPTO may collect in a
              applicants clearly identify and rank gaps in                   given year. OIG’s November 2008 Top Management
              broadband coverage, as well as submit proposals                Challenges Facing the Department of Commerce report
              targeting areas of greatest need.                              suggested that USPTO’s unique financing structure
                                                                             could become increasingly risky, but the recent
                                                                             economic downturn, the decrease in fees collected by
              5. U.S. Patent and Trademark Office:                           USPTO during this time, and the resulting budget
                 Address the Patent Office’s Resource                        difficulties faced by USPTO show that its
                 and Quality Control Issues                                  vulnerabilities are becoming critical more quickly
                                                                             than      expected.    USPTO         must      consider
              A decade ago, Congress gave USPTO independent                  administrative, regulatory, and legislative solutions in
              control of its management and administrative                   addressing these challenges.
              functions as a performance-based organization. With
              these flexibilities came measurable goals,
              performance targets, and expectations that USPTO


                                                                         6
DOC OIG SAR SEPT 09.qxd   12/1/09    2:52 PM   Page 7




              September 2009—Semiannual Report to Congress                                    Major Challenges for the Department



              Other Issues Requiring Significant                            NOAA continues to face the challenge of carrying
              Management Attention                                          out its mission to conserve the nation’s fragile oceans
                                                                            and living marine resources while ensuring a vital
              The Department of Commerce also faces several                 U.S. commercial fishing industry. It recently
              organizational challenges. First, the effective               announced plans to realign its headquarters’
              management of grants and contracts has been a long-           leadership structure in order to streamline decision
              standing issue for the Department. Now, due in large          making and provide greater policy-level attention to
              part to the Recovery Act, the Department is issuing           day-to-day management and oversight of its
              more grants and contracts than ever. But the                  programs. The realignment is intended to provide
              Department’s ability to appropriately issue and               additional strategic guidance and leadership direction
              oversee grants and contracts is in question, given a          for NOAA’s stewardship responsibilities, including
              serious shortage of staff with the skills and training        fisheries. Nevertheless, balancing its competing
              necessary to do this critical work. The Department            mandates for maintaining and improving marine and
              must build up the size and skills of its grants and           coastal ecosystems while supporting marine
              contracts workforce and improve its oversight                 commerce and transportation remains an acutely
              processes to make sure grants and contracts are issued        difficult challenge.
              effectively and program offices are ensuring that
              funds are properly spent.                                     Finally, the Department’s headquarters, the General
                                                                            Services Administration (GSA)-owned Herbert C.
              The Department has been described as a “holding               Hoover Building in Washington, D.C., is undergoing
              company” of 12 autonomous operating units, most               an extensive renovation. The renovation will take
              of which have independent business models, cultures,          about 13 years and is estimated to cost almost
              and practices. This diversity can create obstacles to         $960 million to complete. The project is being
              the Department’s efforts to integrate administrative          funded mostly by GSA, but the Department has a
              processes. Commerce needs to standardize and                  primary interest in ensuring the renovation is
              centralize management and oversight in order to save          completed on schedule, within budget, and free of
              time and money while making operations among its              fraud. To meet this goal, Commerce and GSA need
              operating units more efficient. In a related challenge,       to provide comprehensive oversight throughout the
              the Department and its operating units must develop           project’s life cycle.
              cooperative processes for planning, managing, and
              overseeing major system acquisitions.




                                                                        7
           RECOVERY ACT OVERSIGHT

Introduction                                                    Figure 1. Commerce Recovery Act Allocations
                                                                Compared with FY 2009 Appropriations
On February 17, 2009, the President signed the
Recovery Act into law. The Recovery Act requires an
unprecedented amount of transparency and
accountability and sets out specific responsibilities for
OIG to provide oversight of the Department’s
activities and its spending of funds appropriated by
the act. The Department of Commerce—five
operating units, plus OIG—received nearly $8 billion
under the Recovery Act, almost doubling the
Department’s FY 2009 appropriations (see Figure 1):

The act allocated funds to operating units, as well as
to OIG for oversight, as follows (see Figure 2):



Figure 2. Commerce Recovery Act Allocations, by Operating Unit




                                                            8
DOC OIG SAR SEPT 09.qxd   12/1/09    2:52 PM    Page 9




              September 2009—Semiannual Report to Congress                                                  Recovery Act Oversight



              Economic Development Administration (EDA) funds                Through FY 2009, Recovery Act operations at
              will support private investment, employment, and               Commerce were guided by a Department
              income in economically distressed communities.                 implementation team, organized by the Secretary of
              Census funds will augment the 2010 decennial census            Commerce, to coordinate Recovery Act work across
              with additional personnel, training, media purchases,          the Department. The OIG team monitored their
              and management of operational and programmatic                 activities, ensuring that agencies followed Office of
              risks. The National Institute of Standards and                 Management and Budget (OMB) guidance (M-09­
              Technology (NIST) will spend the bulk of its scientific        15 and M-09-21) in developing their spending plans,
              and technical research and services funds to acquire           program plans, program operations, agency
              advanced scientific equipment; its construction of             reporting, and recipient reporting review processes.
              research facilities funds are equally divided between          Using OMB guidance—as well as operating unit
              construction projects for NIST facilities and grants for       spending plans, program plans, and other
              others to build research facilities. The bulk of the           documentation—we risk-assessed Commerce’s
              National Oceanic and Atmospheric Administration’s              Recovery Act activities and developed an FY 2009
              (NOAA) operations, research, and facilities funds              risk-based oversight plan.
              ($170 million) will support habitat restoration, while
              the single largest procurement, acquisition, and               Program start-up operations have involved minimal
              construction outlay (also $170 million) will support           spending activity. Department program management
              complex climate computing/modeling programs.                   has attempted to balance the Recovery Act’s call for
              Recovery Act support for the National                          expediency with its demand for accountability and
              Telecommunications and Information Administration              transparency, thus focusing on implementing
              (NTIA) includes a smaller share for the digital                additional controls to ensure Commerce meets these
              television converter box program (the majority of              unique Recovery Act requirements. As of the end of
              which has already been disbursed). The larger share            FY 2009, Commerce has obligated approximately
              will fund NTIA’s endeavor to stimulate demand and              $1.4 billion in funds and spent approximately
              facilitate greater use of broadband.                           $570 million (see Figure 3). However, with NTIA’s

              Figure 3. Commerce Operating Units’ Recovery Act Spending (in Millions) in FY 2009




                                                                         9
DOC OIG SAR SEPT 09.qxd    12/1/09    2:52 PM     Page 10




              Recovery Act Oversight	                                                    September 2009—Semiannual Report to Congress



              expected awards of first-round Broadband                          assessing program operations prior to implementation.
              Technology Opportunities Program (BTOP) grants                    The chart below and following discussion highlight
              ($1.6 billion) during the upcoming quarter, and                   these FY 2009 activities and achievements.
              continued contract and grant awards by the
              remaining operating units during the next few                     ●   Conducted outreach and training to Commerce
              quarters, we expect obligation activities to increase
              substantially with spending activities modestly                   Since March 2009, our Recovery Act Task Force and
              increasing with the start up construction and                     Office of Investigations have conducted more than
              development activities.                                           80 onsite and video training sessions and briefings
                                                                                related to mitigation of fraud, waste, abuse, and
              As spending increases—introducing new challenges to               mismanagement of Recovery Act funding. This
              reporting data completeness and accuracy—we could                 extensive national effort has reached over 3,000
              find stresses in some of the manual reporting processes           Commerce employees involved in procurement,
              currently in place at the operating unit level. For               grants, and program management—as well as current
              example, additional automation will be important to               and potential recipients of Recovery Act contracts
              manage the increased volume of grant and contract                 and grants from Commerce operating units.
              agency reporting, as well as the completion of quarterly
              recipient reporting. This automation should add                   Topics included:
              efficiencies to the reporting process and decrease the               Transparency and Accountability in

                                                                                    ■


              risks of reporting errors and delays. Finally, operating             Grants Management 

              units must maintain adequate staffing levels to ensure               Transparency and Accountability in

                                                                                    ■


              effective program operations and compliance with                     Contract Management 

              additional Recovery Act requirements.                                 Fraud Indicators Training
                                                                                    ■



                                                                                    Introduction to Federal Suspension

                                                                                    ■	

              FY 2009 Accomplishments: Highlights                                  and Debarment 

                                                                                    Construction Cost Estimating Workshop
                                                                                    ■
              OIG’s active role in outreach, as well as assessing
              programs’ controls from their creation, helps characterize           Transparency and Accountability in

                                                                                    ■



              our FY 2009 Recovery Act oversight as proactive—                     Broadband Grants




               Activity                     Results
              Outreach and Training         ●   More than 3,000 Commerce employees trained and potential recipients briefed
                                                in more than 80 onsite and video training sessions and briefings
              Monitoring Obligations        ●   Review of departmental obligation and spending reports to monitor program
              and Spending                      operations and spending status
              Audit and Evaluation          ●   Commenced an audit of operating unit data quality reviews of recipient reporting
                                            ●   Commenced an evaluation of controls over operating unit reporting on
                                                Recovery.gov
              Operational Reviews           ●   Commenced review of NIST and NOAA pre-award phases of competitive
                                                grant processes
                                            ●   Commenced review of NTIA’s BTOP pre-award grant processes
              Recovery Accountability       ●   Led a RATB initiative to review staffing and qualifications of grants and
              and Transparency Board            contracts workforce
              (RATB) Initiative
              Flash Report                  ●   One flash report, providing best practices gleaned from previous American
                                                relief and recovery initiatives


                                                                           10
DOC OIG SAR SEPT 09.qxd    12/1/09   2:52 PM   Page 11




              September 2009—Semiannual Report to Congress                                                    Recovery Act Oversight



              ●   Commenced an evaluation and an audit that,                 ●   Led a RATB initiative to review staffing
                  respectively, examine operating unit and                       and qualifications of grants and
                  recipient reporting                                            contracts workforce

              We initiated an evaluation of IT controls related to           At the request of (and in consultation with) the
              data integrity, completeness, and accuracy for those           RATB, we developed and distributed a survey to
              operating unit systems that provide data or data               obtain a current benchmark of the acquisition and
              elements for reporting on Recovery.gov. This helped            grant workforce involved in awarding and overseeing
              us identify and assess the design of the key controls          Recovery Act contracts and grants. In taking on this
              that mitigate the risk of erroneous data input and             initiative, Commerce OIG led and coordinated with
              incomplete data transmission. Our review assesses the          the IG community in conducting a Recovery Act-
              effectiveness of the controls and ensures they are             required review to determine the adequacy of staffing
              working as designed.                                           levels, qualifications, and training of personnel
                                                                             responsible for Recovery Act contracts and grants.
              We are also auditing the Commerce agencies to
              determine whether they have established effective              ●   Issued a flash report on balancing expediency
              processes to perform data quality reviews of                       with accountability
              information reported by recipients and awardees of
              Commerce Recovery Act funding. The review—part                 Our flash report entitled “Commerce Experience
              of a broader federal Recovery Act review requested by          with Past Relief and Recovery Initiatives Provides
              the RATB—will help determine whether operating                 Best Practices and Lessons Learned on How to
              units have a process in place to identify omissions and        Balance Expediency with Accountability” (ARR­
              errors, as well as to encourage recipients to make             19692) reviews our reports on past relief and recovery
              timely changes to their reporting as needed.                   initiatives, as well as recent reports by other oversight
                                                                             entities. Consolidating the best practices and
              ●   Initiated pre-award operational reviews (NIST,             recommendations relevant to Commerce’s Recovery
                  NOAA, NTIA)                                                Act investments, this flash report provides a
                                                                             convenient summary of approaches for achieving
              We began a review of the solicitation, selection, and          accountability while spending Recovery Act funds
              pre-award processes for Recovery Act grants awarded            expeditiously.
              by NIST and NOAA to determine whether they were
              awarded competitively in accordance with                       Looking Ahead
              Commerce and Recovery Act requirements. Based on
              our findings, we will recommend areas of                       We are currently completing our FY 2010 plan. In it,
              improvement for (1) NIST on its documentation of               we will continue to prioritize the higher-risk
              the selection process; (2) NOAA on its risk                    initiatives, as well as uncover new oversight priorities.
              management of applicants; and (3) Commerce on its              Outreach and training will remain priorities.
              pre-award guidance on background checks.
                                                                             NTIA’s BTOP is one higher-risk program that will
              We are also preparing to review BTOP to (1) assess             continue to receive significant focus. Plans for BTOP
              how effectively NTIA is implementing it, including             oversight in FY 2010 include a review of pre-award
              management controls, contractor oversight, and                 activities, including NTIA organizational staffing,
              program office staffing; (2) evaluate the proposal pre-        contractor management, pre-award operations, and
              award process that NTIA is using to ensure effective           systems processing. We will evaluate the effectiveness
              and fair application and award processes; and (3)              of programming, the fairness of the application and
              evaluate the integrity and reliability of the online           award process, and the integrity and reliability of the
              application system.                                            online application system. In audit work, OIG will
                                                                             turn significant attention to reviewing BTOP post-
                                                                             award processes. To assess whether effective processes


                                                                        11
DOC OIG SAR SEPT 09.qxd   12/1/09      2:52 PM   Page 12




              Recovery Act Oversight                                              September 2009—Semiannual Report to Congress



              exist to monitor grants, we will review BTOP grant             Further, an OIG focus on fraud prevention will assess
              recipient project reporting and NTIA site visit                anti-fraud monitoring controls available to program
              processes, as well as the technical assistance BTOP            offices and will allow us to provide proactive feedback
              recipients receive.                                            to Commerce operating units on their anti-fraud
                                                                             monitoring, follow-up, and reporting. Our outreach
              Other FY 2010 OIG audit activities will devote                 activities will continue to inform the Department’s
              significant attention to various higher-risk                   Recovery Act participants about the act’s
              construction programs. Our construction compliance             requirements, fraud indicators, and best practices in
              review will assess whether operating units’ Recovery           grant and contract management. Finally, two
              Act construction activities comply with the act as well        administrative/financial reviews begun in FY 2009
              as other requirements, such as Buy American                    will evaluate operating unit data reporting integrity
              provisions, the National Environmental Policy Act,             (especially related to IT controls over data reported to
              and performance bonds. We also plan to conduct a               Recovery.gov) and operating units’ limited data quality
              performance review to help assess agency oversight of          reviews of expenditures reported by Recovery Act
              projects, which can ensure successful and timely               fund recipients.
              completion of construction projects.




                                                                        12
                       WORK IN PROGRESS

The following Office of Inspector General audits and           Review of NTIA’s Organizational and
evaluations were initiated or underway during this             Pre­award Processes for Broadband
reporting period:                                              Technology Opportunities Program
                                                               Review BTOP to (1) assess how effectively NTIA is
                                                               implementing the program, (2) evaluate proposal
Recovery Act Oversight                                         pre­award review measures to ensure effective and fair
                                                               application and award processes, and (3) evaluate
2010 Census Group Quarters Validation                          integrity and reliability of the online application
(GQV) Operation’s Impact on Producing                          system.
a High­quality Address List
Review the GQV operation and evaluate the quality              Review of the Solicitation, Selection, and
of the final group quarters list for coverage and              Pre­Award Processes for Recovery Act
geographic accuracy, and monitor GQV expenditures              Grants Awarded by NIST and NOAA
associated with the Recovery Act.                              Review the solicitation, selection, and pre­award
                                                               processes for Recovery Act grants awarded by NIST
2010 Census Partnership Program and                            and NOAA to determine whether grants were awarded
Recovery Act Spending                                          competitively in accordance with Commerce
Continue oversight of the 2010 partnership program             requirements. Based on findings, suggest best practices
with Census. Monitor program activities and                    or areas of improvement for NIST’s FY 2009 Recovery
associated Recovery Act spending for the duration of           Act competition and future NOAA competitions for
the decennial census. Examine partnership specialist           work not related to the Recovery Act.
roles and activities and thes use of program materials,
and assess partner satisfaction.                               Survey of Federal Contract and Grants
                                                               Personnel Qualifications
Agency Reporting Integrity Under the                           Coordinate survey efforts within the inspector
Recovery Act                                                   general community to determine the adequacy of
Assess the effectiveness of key data edit and interface        staffing levels, and the qualifications of and training
controls that mitigate the risk of erroneous data input        provided to federal contract and grants personnel
and incomplete data transmission in the Commerce               working on Recovery Act projects.
operating unit systems that provide data for reporting
on Recovery.gov.
                                                               Department­Wide Management
Agency Processes for Performing
Limited Data Quality Reviews of                                Department­Wide Oversight of Grants
Recipient Reporting                                            Identify relevant oversight activities currently in place
Audit the data quality review processes of agencies            designed to prevent and detect fraud at the
receiving Recovery Act funding. Assess whether                 Department’s grants­management offices and
processes will adequately identify material omissions          determine (1) whether adequate oversight activities
and/or reporting errors.                                       and controls exist to prevent and detect potential
                                                               fraud, and (2) if those oversight activities and
                                                               controls are consistent with the Department’s Grants



                                                          13
DOC OIG SAR SEPT 09.qxd   12/1/09   2:52 PM   Page 14




              Work in Progress                                                   September 2009—Semiannual Report to Congress



              Manual prescribed by the Office of Acquisition                Federal Information Security
              Management.                                                   Management Act of 2002 Evaluation of
                                                                            a Decennial Census Systems Certification
              FY 2009 Financial Statement Audit                             and Accreditation
              Determine whether the financial statements are fairly         Evaluate the C&A of Census’s FDCA system as part
              stated in accordance with generally accepted                  of our responsibilities under FISMA. Determine
              accounting principles. These audits are performed             whether controls adequately protect the system and
              by an independent public accounting firm under                its information and whether the C&A process
              OIG oversight.                                                produced sufficient information about system
                                                                            vulnerabilities to enable the authorizing official to
                                                                            make a credible, risk-based accreditation decision.
              Census Bureau
                                                                            Reviews of Address Canvassing Lister
              2010 Address Canvassing                                       Travel Claims
              Continue to assess the outcome of the 2010 address            Review the travel claims submitted by address listers
              canvassing operation, which took place from March             in support of the Census 2010 address canvassing
              30 through July 10, 2009, by determining whether              operation. Evaluate the causes of budget variances for
              the operations succeeded in appropriately updating            listers’ time and mileage and other expenses incurred
              Census’s master address lists and maps.                       during address canvassing to help identify how
                                                                            Census can better control costs during nonresponse
              Address Canvassing Payroll                                    follow-up operation.
              Evaluate the accuracy and integrity of payroll
              processing for Census address canvassers, including           Review of Communications
              supervision and rules concerning overtime. During             Campaign Contract
              its address canvassing operation, decennial staff and         Review contract requirements, plans, deliverables,
              approximately 140,000 temporary workers collected             timelines, and funding, and follow up with separate
              addresses and geographic information using                    audits of any problem areas we identify as potential
              handheld computers to update the address file and             areas for audit. The contract provides for an
              maps and to process daily payroll submissions.                integrated marketing and communications campaign
                                                                            in support of the 2010 Census, with the goal of
              Analysis of Field Data Collection                             improving the mail response rate, accuracy of the
              Automation Problems                                           count, and cooperation of enumerators.
              Analyze FDCA problems to determine their causes
              and how best to avoid them in the future. Specifically        Decennial Response Integration System
              examine why cost estimates increased while the scope          (DRIS)
              of the contract decreased, why funds were unavailable         Assess contract requirements, deliverables, funding,
              for the contract to proceed as planned, and what              and timelines, and review award fees and any other
              went wrong with requirements definition and system            contract changes made to accommodate the bureau’s
              development and testing.                                      decision to conduct paper nonresponse follow-up to
                                                                            identify potential areas for audit. The contract
              Distribution of Communications                                provides for the design, building, testing,
              Campaign Promotional Materials to                             implementation, and maintenance of systems and
              Census Partners                                               infrastructure needed to (1) provide assistance to the
              Evaluate whether the promotional materials that were          public by telephone and (2) receive, capture, organize,
              developed as part of the Census Communications                and standardize census data provided by respondents
              Campaign and delivered to the 12 regional offices to          through paper questionnaires and the telephone.
              distribute to their partnership organizations met
              contract requirements for quality and timeliness and
              were appropriate for their target audiences.


                                                                       14
DOC OIG SAR SEPT 09.qxd   12/1/09   2:52 PM   Page 15




              September 2009—Semiannual Report to Congress                                                     Work in Progress



              Second Census Quarterly Report                              adequately protected. Also establish whether
              Report on the progress of the 2010 Census with              continuous monitoring is providing sufficient
              respect to cost, schedule, and risk, as mandated by         information about the status and effectiveness of
              the explanatory statement accompanying the                  security controls, and if the C&A process produces
              Supplemental Appropriations Act of 2008.                    sufficient information about system vulnerabilities to
                                                                          enable the authorizing official to make a credible,
              Survey of Partner Support Program                           risk-based accreditation decision.
              (PSP) Purchases
              Evaluate whether Census employees responsible for           NOAA Enforcement Activities
              administering the PSP are adequately trained and            Conduct a nationwide review of the policies and
              whether regional Census employees are following             practices of NOAA’s Office of Law Enforcement and
              procedures related to review and approval of PSP            General Counsel Office for Enforcement and
              purchases. Census partner organizations purchase            Litigation. Focus on (1) evaluating enforcement
              products and services designed to promote awareness         operations in a regulatory environment; (2) assessing
              of the 2010 Census, especially among traditionally          processes used to establish priorities with respect to
              hard-to-count groups.                                       enforcement actions and penalties; and (3) reviewing
                                                                          overall accounting and management practices applied
              Additional Projects                                         to the enforcement function, as well as the use of
              See page 13 for descriptions of two other                   funds NOAA receives through penalties.
              Census-related works-in-progress funded by the
              Recovery Act.                                               Pacific States Marine Fisheries
                                                                          Commission
                                                                          Audit two NOAA cooperative agreements and three
              National Institute of Standards                             contract task orders awarded to the Commission. In
                                                                          addition to performance, compliance, and cost-
              and Technology
                                                                          incurred audits of the cooperative agreements and
                                                                          task orders, the comprehensive audit also includes an
              California and Ohio Manufacturing
                                                                          audit of 7 years of indirect cost rates and related
              Extension Partnership (MEP)
                                                                          proposals and four cost-reimbursable subcontracts.
              Cooperative Agreements
              Determine whether recipients of MEP cooperative
                                                                          U.S. Historical Climatology Network’s
              agreements have complied with all applicable terms,
                                                                          (USHCN) Data Quality and
              conditions, and NIST operating guidelines. NIST
                                                                          Modernization Efforts
              awards these agreements to organizations to operate
                                                                          Review the USHCN to determine what impact
              MEP centers, which offer technical and business
                                                                          NOAA’s efforts to modernize the network will have
              management experience to manufacturers. The
                                                                          on its climate data collection and reporting.
              federal share cannot exceed 33 percent of allowable
                                                                          Interview users to see if they understand, or are
              project costs.
                                                                          concerned about, the quality issues at hand. Ascertain
                                                                          what corrective actions NOAA has taken and if the
                                                                          actions have been effective.
              National Oceanic and
              Atmospheric Administration

              FISMA Evaluation of NOAA Satellite
              Information System C&A
              Evaluate the C&A of the National Environmental
              Satellite, Data, and Information Service’s
              Environmental Satellite Processing Center system to
              determine whether the system and its information are


                                                                     15
DOC OIG SAR SEPT 09.qxd   12/1/09   2:52 PM   Page 16




              Work in Progress                                                  September 2009—Semiannual Report to Congress



              National Telecommunications and                              whether controls adequately protect the systems
                                                                           and their information, whether continuous
              Information Administration
                                                                           monitoring is providing sufficient information
                                                                           about the status and effectiveness of security
              Audits of Public Safety Interoperable
                                                                           controls, and if the C&A process produces
              Communications (PSIC) Grants in
                                                                           sufficient information about system vulnerabilities
              Several States
                                                                           to enable authorizing officials to make credible,
              As required by the Implementing Recommendations
                                                                           risk-based accreditation decisions.
              of the 9/11 Commission Act of 2007, audit PSIC
              grants awarded to Arkansas, Pennsylvania, California,
                                                                           FY 2009 Financial Statement Audit
              New York, Texas, and Massachusetts. Determine the
                                                                           Determine whether the financial statements are fairly
              progress these states have made in acquiring and
                                                                           stated in accordance with generally accepted
              deploying interoperable communications with PSIC
                                                                           accounting principles. These audits are performed
              grant funds and whether their use of the funds is
                                                                           by an independent public accounting firm under
              meeting all federal requirements.
                                                                           OIG oversight.
              Second Annual Audit of the PSIC
                                                                           Patent Budget Projections
              Grant Program
                                                                           Evaluate USPTO’s budget process, including its
              Begin second annual audit of the PSIC grant
                                                                           method of projecting income, expenses, and
              program, assess NTIA’s administration of the
                                                                           potential budget shortfalls. Determine whether
              program, and report results to Congress, also as
                                                                           USPTO has retained documentation supporting the
              required by the Implementing Recommendations of
                                                                           budget-development process, and whether projected
              the 9/11 Commission Act of 2007.
                                                                           funding shortfalls are based on valid evidence.

              U.S. Patent and Trademark Office                             Patent Quality Assurance Process
                                                                           Determine the effectiveness of USPTO’s patent
              FISMA Evaluations of USPTO C&A                               quality assurance process in ensuring that established
              Evaluate C&A activities for the Patent Cooperation           standards of patent examination quality are met, and
              Treaty Search Recordation System and Enterprise              whether the process complies with applicable
              UNIX Services System as part of our                          departmental, operating unit, and federal laws,
              responsibilities under FISMA. We evaluated                   regulations, policies, procedures, and guidelines.




                                                                      16
DOC OIG SAR SEPT 09.qxd   12/1/09    2:52 PM    Page 17




                                      DEPARTMENT-WIDE

                                        MANAGEMENT


              T
                      he United States Department of Commerce creates the conditions for economic growth and
                      opportunity by promoting innovation, entrepreneurship, competitiveness, and stewardship. The
                      Department has three stated strategic goals:
                      Goal 1: Provide the information and tools to maximize U.S. competitiveness.
                      Goal 2: Foster science and technological leadership by protecting intellectual property, enhancing
                      technical standards, and advancing measurement science.
                      Goal 3: Observe, protect, and manage the Earths’ resources to promote environmental stewardship.
              The Department has also established a Management Integration Goal that is equally important to all operating
              units: Achieve organizational and management excellence.




              Commerce Should Take Steps                                      Administration, National Institute of Standards and
                                                                              Technology, NOAA’s National Environmental
              to Strengthen Its Information                                   Satellite Data and Information Service and its
              Technology Security Workforce                                   National Weather Service, National Telecom­
                                                                              munications and Information Administration,
              (CAR-19569-1)                                                   Office of the Secretary, and U.S. Patent and
                                                                              Trademark Office.
              With the threat of cyber attacks looming over
              government and private-sector computer networks,                We reviewed the IT security employees’ specialized
              the Department of Commerce has become                           training, certification, security clearances, and
              increasingly concerned about the safety of its sensitive        professional development efforts. Our sample
              information. OIG initiated this audit to address the            consisted of the IT security workforce responsible for
              Department’s need for an IT security workforce with             11 information systems in various operating units.
              the skills to protect the Department’s IT systems               We chose systems that we believed the Department
              against cyber attacks. We assessed the Department’s             and operating units would place particular emphasis
              efforts to develop and maintain an effective IT security        on staffing with experienced and trained
              workforce because we have long identified information           professionals because of the security requirements of
              security as a top challenge for management.                     the information they handle.

              Our audit focused on the IT security personnel at               In our audit, we discovered that the Department
              nine Commerce operating units: Bureau of Industry               needs to devote more attention to the development
              and Security, Census, International Trade                       and guidance of its IT security personnel who protect


                                                                         17
DOC OIG SAR SEPT 09.qxd      12/1/09    2:52 PM    Page 18




              Department-Wide Management                                                 September 2009—Semiannual Report to Congress



              the Department’s sensitive computer systems and                    ●	   provide appropriate security clearances for IT
              information.                                                            security personnel.

              ●    Few of the operating units we reviewed were taking            The need to strengthen the IT security workforce is a
                   the necessary steps to meet training requirements             challenge for the entire federal government, not just
                   or keep accurate training records. Moreover,                  the Department. We therefore encouraged the
                   professional development plans were not generally             Department’s CIO to take a leadership role on the
                   used.                                                         Federal CIO Council to work with the Office of
                                                                                 Personnel Management to reassess the position
              ●	   On the whole, performance management and                      requirements for the IT security workforce with the
                   accountability need to improve. We found several              goals of better defining duties and responsibilities,
                   instances in which IT security responsibilities were          establishing certification requirements, and
                   not included in employees’ formal performance                 professionalizing the workforce through appropriate
                   plans. Also, personnel with significant security roles        educational requirements. The Department agreed
                   were not always formally notified of their duties.            with our audit findings and made a commitment to
                                                                                 address our recommendations immediately.
              ●	   Finally, we found that some IT security personnel
                   in the operating units we audited did not have the            Nonfederal Audit Activities
                   level of security clearance Department policy
                   requires. The IT security workforce on the front              In addition to undergoing OIG-performed audits,
                   line of protecting the Department’s assets should             certain recipients of Commerce financial assistance
                   have levels of clearance commensurate with their              are periodically examined by state and local
                   responsibilities.                                             government auditors and by independent public
                                                                                 accountants. OMB Circular A-133, Audits of States,
              To develop and maintain an effective IT security                   Local Governments, and Non-Profit Organizations, sets
              workforce, we recommended Commerce implement                       forth the audit requirements for most of these audits.
              a Department-wide plan that will address the                       For-profit organizations that receive Advanced
              deficiencies identified in this audit. We advised                  Technology Program (ATP) funds from NIST are
              Commerce to make necessary revisions to its current                audited in accordance with Government Auditing
              IT security policy to support the plan. The plan                   Standards and NIST Program-Specific Audit
              should include actions to                                          Guidelines for ATP Cooperative Agreements, issued by
                                                                                 the Department.
              ●	   enhance the professional development of personnel
                   with significant IT security responsibilities,                We examined 147 audit reports during this
                   including developing and implementing a                       semiannual period to determine whether they
                   requirement for IT security certifications;                   contained any audit findings related to Commerce
                                                                                 programs. For 70 of these reports, the Department
              ●	   identify essential training, ensure workforce                 acts as oversight agency and monitors the audited
                   members receive appropriate role-based and                    entity’s compliance with OMB Circular A-133 or
                   security awareness training, and track the training           NIST’s program-specific reporting requirements.
                   that has been taken;                                          The other 77 reports are from entities for which
                                                                                 other federal agencies have oversight responsibility.
              ●	   formally document the roles and duties of                     We identified 9 reports with findings related to the
                   employees having significant IT security                      Department of Commerce.
                   responsibilities and include IT security as a critical
                   element in their performance plans; and




                                                                            18
DOC OIG SAR SEPT 09.qxd     12/1/09     2:52 PM      Page 19




              September 2009—Semiannual Report to Congress                                    Department-Wide Management



              Nonfederal Audit Activities
                Report Category                               OMB A-133 Audits    ATP Program-SpecificAudits    Total
              Pending (April 1, 2009)                                  36                     21                     57
              Received                                                 165                    17                 182
              Examined                                                 131                    16                 147
              Pending (September 30, 2009)                              70                    22                     92


              The following table shows a breakdown by operating
              unit of approximately $331 million in Commerce
              funds audited.

                Bureau                                                                                  Funds
              Economic Development Administration                                                      $51,706,651
              Minority Business Development Agency                                                        792,760
              National Institute of Standards and Technology*                                           30,094,372
              National Oceanic and Atmospheric Administration                                           19,919,182
              National Telecommunications and Information Administration                                 1,524,798
              Multi-Agency                                                                             227,090,897
              Total                                                                                  $331,128,660

              * Includes $23,307,034 in ATP program-specific audits.


              We identified a total of $1,277,948 in federal
              questioned costs. In most reports the subject
              programs were not considered major programs; thus
              the audits involved limited transaction and
              compliance testing against laws, regulations, and
              grant terms and conditions. The nine reports with
              Commerce findings are listed in Appendix B-1.
              (Regional Offices of Audits)




                                                                             19
DOC OIG SAR SEPT 09.qxd   12/1/09   2:52 PM   Page 20
DOC OIG SAR SEPT 09.qxd   12/1/09   2:52 PM   Page 21




                                 BUREAU OF

                           INDUSTRY AND SECURITY


              T
                      he Bureau of Industry and Security is primarily responsible for administering and enforcing the
                      nations’ system for controlling exports of sensitive dual-use goods and technologies. BIS’ major
                      functions include formulating and implementing export control policy; processing export license
              applications; conducting various policy, technical, and economic analyses; promulgating regulations;
              conducting industry outreach; and enforcing the Export Administration Act and regulations. BIS has two
              primary organizational units:
              Export Administration implements U.S. export control and nonproliferation laws and policies through export
              licensing, commodity classifications, and advisory opinions; technical, economic, foreign availability, and
              policy analyses; promulgation of regulations; and industry outreach. It also conducts various defense industry
              activities and enforces industry compliance with arms control treaties.
              Export Enforcement participates in reviews of export license applications and conducts criminal and
              administrative investigations relating to the export control portions of the Export Administration Act and
              regulations. It also administers and enforces the antiboycott provisions of the act and regulations.


              Federal Information Security                                 FY 2009 FISMA Assessment of
              Management Act of 2002: Two                                  BIS Information Technology
              Reviews Uncover Deficiencies                                 Infrastructure (OSE-19574)
              and Vulnerabilities
                                                                           Continuous monitoring is a critical post-
              FISMA requires federal agencies to identify and              accreditation aspect of the security certification and
              provide security protection of information collected         accreditation process. Effective continuous
              or maintained by them or on their behalf.                    monitoring requires configuration management and
              Inspectors general are required to annually evaluate         control of information system components, security
              agencies’ information security programs and                  impact analyses of changes to the system, assessment
              practices. These evaluations must include testing of         of security controls, and status reporting. We sought
              a representative subset of systems and an assessment,        to determine whether, due to continuous
              based on that testing, of the entity’s compliance            monitoring, (1) officials are kept informed about the
              with FISMA and applicable requirements. During               status and effectiveness of security controls; (2) BIS
              this semiannual period, we conducted reviews of              promptly mitigates any deficiencies; and (3) BIS has
              two IT systems at BIS.                                       resolved deficiencies we noted in our FY 2006
                                                                           evaluation. Our review covered our assessment of the
                                                                           continuous monitoring of BIS’ IT infrastructure
                                                                           system since its accreditation in 2006.


                                                                      21
DOC OIG SAR SEPT 09.qxd   12/1/09    2:52 PM    Page 22




              Bureau of Industry and Security                                    September 2009—Semiannual Report to Congress



              We found that continuous monitoring has not been              FY 2009 FISMA Assessment of
              conducted since the 2006 accreditation. Further,
              significant C&A deficiencies that we previously
                                                                            Bureau Export Control Cyber
              identified have not been corrected. In addition, our          Infrastructure, Version 2
              on-site assessment of security controls revealed              (OSE-19575)
              vulnerabilities that require remediation. As a result,
              officials have no assurance that the required controls        We sought to determine whether BIS’ C&A of its
              are in place to adequately protect the IT                     Bureau Export Control Cyber Infrastructure (ver. 2)
              infrastructure system and its information. Although           produced sufficient information about system
              the authorization to operate the system expired               vulnerabilities, its continuous monitoring is
              earlier this year, BIS has no current plans to                providing sufficient information about the status and
              reaccredit this IT system. Thus, BIS should not have          effectiveness of security controls, and the system and
              reported to the Office of Management and Budget               its information are adequately protected.
              and the Department that annual assessments of
              security controls were conducted or that the system           We found that the C&A did not meet Department or
              was certified and accredited. BIS’ then-chief                 FISMA        requirements.       Security    planning
              information officer stated that budget constraints            deficiencies—in particular, the lack of defined
              precluded BIS from taking appropriate actions.                security requirements—undermined the certification
              Until such protections are in place, this system will         team’s ability to assess controls accurately and
              remain vulnerable.                                            completely. We found that (1) key security planning
                                                                            activities necessary for C&A were not performed,
              We are making many specific recommendations                   (2) secure configuration settings were not defined for
              aimed at putting into place a system in which                 IT products prior to the security control assessment,
              changes are documented, monitoring of selected                (3) the security control assessment was not adequate,
              security controls is continuous, and authorizing              (4) the authorizing official’s accreditation decision
              officials are informed of and address risks.                  violated Department and BIS IT security policy and
                                                                            FISMA guidance, (5) reporting procedures required
                                                                            by Department IT policies were not followed, and
                                                                            (6) vulnerabilities existed that required remediation.

                                                                            We are making many specific recommendations aimed
                                                                            at improving BIS’ C&A process, and bringing it into
                                                                            conformance with both FISMA and departmental
                                                                            requirements. We are also recommending that BIS
                                                                            address the vulnerabilities that we found in our on-site
                                                                            assessment of security controls.




                                                                       22
DOC OIG SAR SEPT 09.qxd   12/1/09   2:52 PM   Page 23




                      ECONOMICS AND STATISTICS

                          ADMINISTRATION


              T
                      he Economics and Statistics Administration analyzes economic activity, formulates policy options,
                      and produces a major share of U.S. government economic and demographic statistics. The chief
                      economist monitors and analyzes economic developments and directs studies that have a bearing on
              the formulation of economic policy. ESA has two principal organizational units:
              Census Bureau is the country’s preeminent statistical collection and dissemination agency. It publishes a wide
              variety of statistical data about the nations’ people and economy, conducting approximately 200 annual surveys,
              in addition to the decennial census of the U.S. population and the quinquennial census of industry.
              Bureau of Economic Analysis prepares, develops, and interprets the national income and product accounts
              (summarized by the gross domestic product), as well as aggregate measures of international, regional, and state
              economic activity.


              Census 2010: Cost,                                            problems, indicates where oversight is needed, and
                                                                            provides lessons learned for future census activities.
              Performance, and Quality
              Issues an Ongoing Focus of
                                                                            Observations and Address
              OIG Activities
                                                                            Listers’ Reports Provide Serious
              An accurate decennial census is required for                  Indications That Important
              congressional apportionment and redistricting, the            Address Canvassing
              annual distribution of more than $400 billion in
              federal funds to states and localities, and government        Procedures Are Not Being
              and business planning and decision making.                    Followed (OIG-19636-01)
              Accordingly, our oversight of the 2010 census has
              been an ongoing priority. We began our work in                To conduct the 2010 census, the Census Bureau will
              2002 with a report on lessons learned, Improving Our          contact, via mail or in person, more than 130 million
              Measure of America: What Census 2000 Can Teach Us             housing units, occupied or vacant, and will rely on its
              in Planning for 2010. Since that time, we have                master address file and maps to do so. During the
              issued more than 20 reports highlighting continuing           address canvassing operation, decennial staff
              weaknesses in key decennial areas, including                  collected addresses and geographic information to
              contracting, maps and address lists, systems                  update the address file and maps. This operation cost
              development, and enumerating hard-to-count                    $444 million, almost 25 percent over budget
              populations. Our recent and ongoing work,                     (excluding the cost of handheld computers),
              described in the summaries below, identifies                  employed approximately 140,000 temporary workers



                                                                       23
DOC OIG SAR SEPT 09.qxd    12/1/09    2:52 PM    Page 24




              Economics and Statistics Administration 	                               September 2009—Semiannual Report to Congress



              using handhelds, and took less than 4 months to                 (FDCA) contract—jeopardizes Census’s ability to
              complete. A key feature of the handhelds is the global          ensure that living quarters are recorded within the
              positioning system (GPS) capability, which allowed              correct census block. Finally, despite instructions to
              address listers to accurately locate an address on the          traverse every road in an assignment area, we
              handhelds’ electronic map, a procedure called                   observed that some listers completely skipped roads
              “map spotting.”                                                 in rural areas when they assumed no houses existed
                                                                              on the road.
              As part of our oversight of the 2010 decennial census,
              we observed address canvassing operations in                    A number of factors may be contributing to this
              15 different locales in 5 of the 12 Census regions to           breakdown in procedures. We received reports from
              determine, among other things, whether address                  Census field staff that they were under intense
              listers were following Census procedures.                       pressure to complete their assignments within a
                                                                              limited time frame and to minimize or avoid
              Findings                                                        overtime.

              Limited in number and not conducted on a                        Recommendations
              statistically drawn sample, our observations cannot
              be considered representative of the entire operation.           In April, we recommended to Census that it
              Nevertheless, we found inconsistencies that, if left            immediately communicate with its field offices to
              unaddressed, may negatively impact the quality of               reinforce the need to follow documented procedures.
              the 2010 census address list and may cause Census to            Census responded rapidly by issuing an e-mail to
              incur additional costs in subsequent quality control            field staff and conducted a teleconference with its
              and enumeration operations.                                     regional directors about the issue. To promote an
                                                                              accurate address list and contain costs, we later
              Our field observations and information                          recommended that Census
              independently provided to us by address listers show
              that listers were not consistently following certain key        ●	   conduct an analysis of assignment areas where
              procedures conveyed in the Census address                            listing operations were completed materially ahead
              canvassing manual and during three days of rigidly                   of schedule to determine whether early completion
              scripted training. When listers encounter a structure                of production may indicate areas where procedures
              in the field, they must determine if that structure                  were not followed. These areas should receive
              contains living quarters. Through interviews with                    special attention using additional quality control
              occupants, they determine whether the structure is a                 checks in ongoing and upcoming address
              single residence, contains separate housing units, or is             canvassing quality control operations.
              a group quarters such as a nursing home, college
              residence hall, group home, or shelter. The lister also         ●	   finalize the contingency plan for improving address
              determines whether addresses should be added to or                   list quality in the event that the results of the
              deleted from the address list.                                       address canvassing operation are found to be
                                                                                   deficient.
              We found that listers did not consistently knock on
              doors, and we observed listers map-spotting addresses           ●	   analyze the costs and benefits of 100 percent
              from their cars instead of collecting a map spot at or               address canvassing in planning for the 2020
              near the main entrance of a structure, as instructed.                decennial census, and consider whether alternative,
              This failure of listers to correctly use the handhelds’              more effective strategies for developing the address
              GPS capability—a key component of Census’s more                      list are feasible.
              than $800 million Field Data Collection Automation




                                                                         24
DOC OIG SAR SEPT 09.qxd   12/1/09    2:52 PM    Page 25




              September 2009—Semiannual Report to Congress                                     Economics and Statistics Administration



              Problems Encountered in the                                     January 2009. Instead of the estimated 400
                                                                              experienced listers and 700 new hires necessary to
              Large Block Operation                                           canvass 1.2 million addresses, the bureau actually
              Underscore the Need for Better                                  employed 600 experienced listers and hired and
              Contingency Plans                                               trained 2,000 listers with no prior ALMI software
                                                                              work experience to canvass 3.7 million addresses,
              (OIG-19171-02)                                                  increasing the probability of developing a less
                                                                              accurate address list.
              During the 2008 dress rehearsal for the address
              canvassing operation, Census found that handhelds               Inconsistencies with Primary Address Canvassing
              did not meet its operational needs when used to list            Procedures Increased the Likelihood of Errors
              blocks containing over 720 addresses. Although                  The primary address canvassing procedures included
              Census worked with its FDCA contractor to improve               the use of handhelds and required listers to knock on
              the handhelds’ performance, it considered the risk              doors and attempt to make contact at every structure
              associated with blocks containing 1,000 addresses or            that contained a living quarters. However, for the
              more too high based on performance testing results.             large block operation, listers needed only to conduct
              This problem required Census to rapidly develop an              interviews at housing units with missing house
              alternative method for canvassing large blocks.                 numbers or with the managers of large multi-unit
                                                                              apartments and mobile home parks. We observed
              Although large blocks represent only about two                  instances where the combination of not walking the
              percent of all addresses, the large block canvassing            route and not talking to residents increased the
              operation, carried out between January and June                 possibility of missing housing units or other living
              2009, gave us an early opportunity to review a                  quarters.
              decennial field operation and to determine whether
              large block address canvassing procedures,                      Further, the short battery life of the ALMI laptops
              technology, and operations were effective. We                   created the potential for further inconsistencies with
              conducted our review at eight Census field offices              primary address canvassing procedures. Some listers
              around the country and found several issues related             took time away from orderly canvassing to charge
              to Census’s approach to the operation.                          batteries at a public facility; others drove their cars
                                                                              around their assignment areas and plugged the
              Findings                                                        laptops into a car outlet. Driving rather than walking
                                                                              was not consistent with the prescribed procedures
              Need for a Quickly Developed Contingency Plan                   and precluded a thorough canvassing.
              Increased the Opportunity for Errors
              Census had no contingency plan for the inadequate               Delayed Quality Control Operation Prevented Early
              performance of the handhelds noted in dress                     Identification of Poorly Performing Listers
              rehearsal. It quickly considered three options,                 The large block operation included a quality control
              including the use of pencil and paper, for listing large        process intended to identify listing errors and was
              blocks and finalized a plan only 4 months prior to the          scheduled to follow closely after production listing
              start of the large block field operation. The option            operations. The purpose of this timing was to quickly
              chosen was to use ALMI, a software program in use               check a sample of completed assignments in order to
              at Census field operations since 2003. Census                   improve accuracy by identifying poorly performing
              conducted three tests of the ALMI software in 2008,             listers and providing them with additional training or
              but none of these tests simulated the entirety of               other remedies as needed. The bureau’s decision to
              events that occur during a decennial operation.                 use the ALMI software for quality control, although
                                                                              never designed to accommodate certain decennial
              The bureau did not fully understand the magnitude               practices, exposed a software problem that delayed
              of the large block effort until late October 2008, less         the start of quality control for several weeks. Listers
              than 3 months before the start of the operation in              could continue making errors before their work was


                                                                         25
DOC OIG SAR SEPT 09.qxd    12/1/09    2:52 PM    Page 26




              Economics and Statistics Administration 	                              September 2009—Semiannual Report to Congress



              checked, thus increasing the potential for address             Recommendations
              listing errors.
                                                                             We recommended that the bureau
              Depiction of Boundaries on ALMI Maps Affected the
              Accuracy of Map and Address Updates                            ●	   immediately complete contingency plans for future
              Since 2002, Census has invested $200 million to                     critical 2010 operations. These plans must provide
              complete a GPS-alignment of the road network                        enough detail to ensure the accuracy, efficiency,
              contained on its maps. This activity, combined with                 and stability of the operation;
              the use of handhelds equipped with GPS, was
              intended to facilitate the development of a more               ●	   conduct a quality review of the address list for areas
              accurate address list and the location of living                    where boundaries are not based on physical features
              quarters in subsequent operations. However, the                     to determine if housing units have been missed or
              ALMI laptops did not have GPS capability and the                    incorrectly located; and
              maps included on the laptops were based on
              tabulation geography that included invisible lines             ●    consider using handhelds for their GPS locating
              (i.e., boundaries not based on physical features). The              capacity for operations such as update/leave,
              lack of GPS capability and the use of tabulation                    update/enumerate, and non-response follow-up to
              geography in large block canvassing caused a number                 take greater advantage the technology developed
              of accuracy-related problems for listers.                           under the FDCA contract and achieve a more
                                                                                  accurate address list and enumeration.
              Extending the Use of the Handhelds to Subsequent
              Operations Could Improve the Quality of the
              Decennial Census                                               2010 Census: First Quarterly
              Incorrect placement of housing unit map spots                  Report to Congress
              jeopardizes Census’s ability to ensure that living             (OIG-19791-01)
              quarters are recorded within the correct census block.
              This, in turn, affects the efficiency and accuracy of
                                                                             Since first conducted in 1790, the constitutionally
              enumerating the population and its tabulation in
                                                                             mandated decennial census field activities have
              geographic areas. Continued use of the handhelds’
                                                                             largely been paper-based operations. The 2010
              GPS capability as a locating device could improve
                                                                             Census plan included significant expansion of
              quality and reduce costs of operations in rural areas,
                                                                             automation, using handhelds to verify addresses
              where addresses are generally more difficult to find.
                                                                             (address canvassing), conduct in-person surveys with
                                                                             households that did not return their questionnaires
              Contingency Planning
                                                                             (nonresponse follow-up), and collect data from a
              Problems associated with the large block operation
                                                                             nationwide sample to evaluate the accuracy of the
              underscore the need for a well thought-out
                                                                             decennial     count      (coverage    measurement).
              contingency plan covering all of the critical
                                                                             Nonresponse follow-up is the most expensive and
              operations coming up in the decennial calendar.
                                                                             labor-intensive operation of the decennial census.
              Because Census does not have completed
                                                                             Increasing costs and automation problems prompted
              contingency plans for all critical operations, it needs
                                                                             the bureau’s decisions to abandon the handhelds for
              to have these plans well developed and documented
                                                                             nonresponse follow-up and coverage measurement
              so, if needed, they can be implemented with as little
                                                                             operations but still use them for address canvassing.
              impact as possible to the accuracy, efficiency, and
              stability of the 2010 Census.
                                                                             The Supplemental Appropriations Act of 2008 gave
                                                                             Census an additional $210 million to help cover
                                                                             spiraling 2010 decennial costs stemming from the
                                                                             bureau’s problematic efforts to automate major field
                                                                             operations via handhelds, major flaws in its cost-
                                                                             estimating methods, and other issues. The act’s


                                                                        26
DOC OIG SAR SEPT 09.qxd      12/1/09   2:52 PM    Page 27




              September 2009—Semiannual Report to Congress	                                       Economics and Statistics Administration



              explanatory statement required the bureau to submit             ●	   unreliable cost estimate,
              to the Senate and House Committees on
              Appropriations a detailed plan and time line of                 ●	   lack of transparency in use of contingency funds,
              decennial milestones and expenditures, as well as a
              quantitative assessment of associated program risks             ●	   lack of systematically documented program and
              within 30 days.                                                      funding decisions,

              OIG was also required to provide quarterly reports              ●    risk-management activities that are behind schedule,
              on the bureau’s progress against this plan. The                      and
              objective of this report was to assess the bureau’s
              ability to oversee the systems and information for              ●	   varying quality and content of mitigation plans.
              tracking schedule activities, cost, and risk-
              management activities.                                          In addition, we found that Census did not clearly and
                                                                              accurately report on the status of the IT security risk
              In our review, we discovered that inherent weakness             associated with the FDCA system, which includes the
              in its systems and information for tracking schedule            handheld computers, and ceased reporting it as a key
              activities, cost, and risk-management activities have           issue in the Monthly Status Report, even though the
              long hampered the bureau’s ability to effectively               issue had not been adequately resolved.
              oversee decennial progress. The overarching problem
              is that these systems and information are not                   Our recommendations, which we forwarded to
              integrated in a manner that allows for effective                Census in a separate document, included
              program management measured against earned value
              metrics. As a result, Census does not have a direct             ●	   strengthening its process for preparing and
              link between the schedule of specific activities, the                reviewing Monthly Status Reports to ensure that
              cost of those activities, and the work actually                      they fully and accurately report all key issues and
              accomplished. This ability to generate earned value                  significant risks, as well as other relevant
              measures makes it difficult to forecast cost overruns                information;
              and underruns.
                                                                              ●	   using its project management software with the
              The bureau implemented a risk-management process                     2020 Census to integrate planned budget and
              that was an improvement over the prior decennial,                    expenditure information with schedule activities to
              which lacked a formal risk-management process, but                   better track the status of available funds, forecast
              issues remain. Specific limitations that impact the                  impending overruns and underruns so that funds
              bureau’s management of the decennial census                          can be reallocated promptly, and improve the
              include:                                                             transparency of decennial status to oversight
                                                                                   officials and stakeholders; and
              ●	   not using critical path management,
                                                                              ●	   developing a robust and transparent process for the
              ●	   no thorough up-front review of project start and                2020 Census to document significant decisions and
                   end dates,                                                      trade-offs in order to understand estimated costs.

              ●	   limited integration of major contractor activities,

              ●	   no integration of schedule activities and budget
                   plan/expenditure information,




                                                                         27
DOC OIG SAR SEPT 09.qxd   12/1/09   2:52 PM   Page 28




                                                        ---
DOC OIG SAR SEPT 09.qxd   12/1/09   2:52 PM   Page 29




                     NATIONAL INSTITUTE OF

                  STANDARDS AND TECHNOLOGY


              T
                      he National Institute of Standards and Technology promotes U.S. innovation and industrial
                      competitiveness by advancing measurement science, standards, and technology in ways that enhance
                      economic security and improve quality of life. NIST manages four programs: the Technology
              Innovation Program, the Manufacturing Extension Partnership program, the Baldrige National Quality
              Program, and NIST Research Laboratories.


              The University of Texas at                                    of the project were $42 million. The federal share was
                                                                            capped at $14 million (33 percent) of allowable costs.
              Arlington Manufacturing                                       We audited the MEP to determine whether its
              Extension Partnership Award                                   claimed costs were allowable under the terms of the
              No. 70NANB5H1005                                              agreement and whether the recipient had complied
                                                                            with all other MEP operating guidelines, award
              (DEN-18573)                                                   terms, and conditions. We also examined costs
                                                                            submitted to UTA by two subrecipients—
              Congress established the MEP program in 1988 to               Texas Engineering Extension Service and
              offer technical and business management assistance            Southwest Research Institute—that received
              to manufacturers, with the goal of improving their            cooperative agreement funding from the MEP to
              profitability, productivity, and global competi­              operate centers.
              tiveness. The program, operated by NIST, provides
              partial federal funding to nonprofit organizations to         UTA claimed costs totaling $21 million for the
              operate MEP centers that offer an array of services to        period September 2005 through March 2007, and
              business and industry clients. The funding is made            received federal reimbursements of $6.6 million. We
              available through cooperative agreements that require         questioned $1,619,280 of these costs, as follows:
              nonfederal matching funds from state or regional
              partners to support center operations. Today there is         ●	   $1,533,055 in costs submitted to UTA by
              at least one center in every state and a total of                  subrecipient Texas Engineering Extension Service
              59 MEP centers located across the country.                         for, among other things, services from contractors
                                                                                 that the contracting firms provided as part of their
              The University of Texas at Arlington (UTA) received                normal course of business, not as a result of their
              a NIST cooperative agreement in March 2005 to                      MEP association; activities the extension service
              continue operating the Texas Manufacturing                         could not document as having been incurred as
              Assistance Center—a network of seven centers                       part of MEP-funded work; and indirect costs that
              operating throughout the state. The award, as                      exceeded the approved budget.
              amended, provided funding for 33 months
              (December 2004-August 2007). Total estimated costs



                                                                       29
DOC OIG SAR SEPT 09.qxd     12/1/09   2:52 PM   Page 30




              National Institute of Standards and Technology	                    September 2009—Semiannual Report to Congress



              ●	   $86,225 in direct and indirect costs UTA incurred        Officer’s Smart Spot Check and subsequent
                   for unallowable lobbying and related hotel               improvement to the C&A, the authorizing official
                   expenses.                                                did receive sufficient information to make a credible,
                                                                            risk-based decision to approve system operation.
              We also found that Texas Engineering Extension                Moreover, continuous monitoring is providing
              Service used $238,338 budgeted for indirect costs to          important data about the operational status and
              cover direct costs claimed from September 1, 2005,            effectiveness of security controls.
              through August 31, 2006, without prior approval
              from NIST or UTA, and reported incorrect program              We noted only minor deficiencies, including
              income for its subrecipients. Finally, we found that          (1) needed improvements in the system security plan;
              subrecipient Southwest Research Institute                     (2) the need for secure configuration settings for
              erroneously claimed certain indirect costs, totaling          applications; (3) some certification weaknesses in
              $63,412, as in-kind contributions.                            control assessments; and (4) vulnerabilities uncovered
                                                                            by our assessments that require remediation.
              We recommended that NIST disallow $1,619,280 in
              questioned costs and recover $94,120 in excess                Our recommendations concern documentation,
              federal funds.                                                conformance with NIST guidance, the application of
                                                                            security controls to all relevant IT products, and
              Federal Information Security                                  remediation of vulnerabilities identified by OIG.
              Management Act of 2002:
                                                                            FY 2009 FISMA Assessment of
              Two Reviews Find Compliant
                                                                            Application Systems and
              IT Security
                                                                            Databases (OSE-19512)
              FISMA requires federal agencies to identify and
              provide security protection of information collected          Our assessment of the C&A of NIST’s Application
              or maintained by it or on its behalf. Inspectors              Systems and Databases system noted some
              general are required to annually evaluate agencies’           deficiencies with security planning prior to the
              information security programs and practices. These            certification phase. However, NIST’s C&A process—
              evaluations must include testing of a representative          in particular, its assessment of security controls—did
              subset of systems and an assessment, based on that            produce sufficient information for the authorizing
              testing, of the entity’s compliance with FISMA and            official to make a credible, risk-based decision to
              applicable requirements.                                      approve system operation. At the same time, NIST’s
                                                                            security planning process needs improvement, secure
              During this semiannual period, we assessed the                configuration settings had not been established for all
              certification and accreditation of two NIST                   IT products, some minor improvements are necessary
              IT systems.                                                   in control assessments, and we found specific
                                                                            vulnerabilities requiring remediation.
              FY 2009 FISMA Assessment of                                   We are making several recommendations, including
              the Manufacturing Engineering                                 those dealing with security planning steps, correction
              Laboratory Managed                                            of identified deficiencies, conformance with NIST
                                                                            guidance, post-remediation testing, and continuous
              Infrastructure (OSE-19511)                                    monitoring.
              In general, our review of the certification and
              accreditation of NIST’s Manufacturing Engineering
              Laboratory Managed Infrastructure was positive.
              Due in part to the departmental Chief Information



                                                                       30
DOC OIG SAR SEPT 09.qxd   12/1/09   2:52 PM   Page 31




                   NATIONAL OCEANIC AND

                ATMOSPHERIC ADMINISTRATION


              T
                      he National Oceanic and Atmospheric Administration mission is to understand and predict changes
                      in Earths’ environment and conserve and manage coastal and marine resources to meet our nations’
                      economic, social, and environmental needs. NOAA does this through six line offices:
              National Weather Service reports the weather of the United States and provides weather forecasts and warnings
              to the general public.
              National Ocean Service provides products, services, and information that promote safe navigation, support
              coastal communities, sustain marine ecosystems, and mitigate coastal hazards.
              National Marine Fisheries Service conducts a program of management, research, and services related to the
              protection and rational use of living marine resources.
              National Environmental Satellite, Data, and Information Service observes the environment by operating a
              national satellite system.
              Office of Oceanic and Atmospheric Research conducts research related to the oceans and Great Lakes, the lower
              and upper atmosphere, space environment, and the Earth.
              Office of Program Planning and Integration develops and coordinates NOAAs’ strategic plan, supports
              organization-wide planning activities, guides managers and employees on program and performance
              management, and integrates policy analyses with decision-making.


              Concerns over NOAA’s                                         that eventually resulted in a series of grants totaling
                                                                           $490,000 in funding to continue producing NOAA-
              Oversight of Grants and                                      sponsored radio spots over a 2-year period. In
              Contract with Finger Lakes                                   October 2006, Finger Lakes sought payment from
              Production International,                                    NOAA in the amount of $526,000 for 456 of
                                                                           968 radio spots produced over a 4-year period.
              Incorporated
              (Final Report No. CAR-19201)                                 We audited NOAA’s oversight of its grants and
                                                                           contract with Finger Lakes to determine whether
              In August 2002, Finger Lakes entered into a sole-            internal control weaknesses were evident throughout
              source contract with NOAA’s Office of Ocean                  NOAA’s business dealings with Finger Lakes.
              Exploration to produce 86 radio spots at a cost of
              $100,000 over a 6-month period ending in January             We found that weaknesses in internal controls were
              2003. After the contract expired, Finger Lakes               evident throughout NOAA’s business dealings with
              applied for and received a financial assistance award        Finger Lakes. NOAA’s relationship with this


                                                                      31
DOC OIG SAR SEPT 09.qxd     12/1/09   2:52 PM   Page 32




              National Oceanic and Atmospheric Administration                        September 2009—Semiannual Report to Congress



              company was flawed almost from the start, as                   ●	   Potential Unauthorized Commitment. The
              program officials ignored federal protocol for                      director of NOAA’s Office of Education
              working with private-sector firms. NOAA program                     inappropriately discussed funding strategies with
              officials’ casual discussions of funding possibilities,             Finger Lakes and the Smithsonian Institution
              letters of endorsement, and use of various funding                  regarding the production of jointly sponsored radio
              vehicles likely conveyed a strong interest on the part              spots, for which the Office of Education and
              of NOAA in maintaining a long-term working                          Smithsonian Institution would pay Finger Lakes
              relationship with Finger Lakes, and minimized,                      $50,000.
              perhaps inadvertently, the differing requirements and
              inherent obligations associated with grants, contracts,        We recommended that the deputy undersecretary for
              and other government-funding vehicles.                         Oceans and Atmosphere ensure that NOAA

              Specific examples of NOAA’s actions include:                   ●	   strengthens grants and procurement internal
                                                                                  controls to include stronger oversight of program
              ●	   Inappropriate Notification of a Grant Award. The               officials’ interactions with current and prospective
                   then-director of NOAA’s Office of Exploration                  grant and contract recipients, and provides
                   inappropriately notified Finger Lakes of a grant               additional guidelines and training for these officials
                   award in advance of the grants officer’s official              to ensure they understand their appropriate roles;
                   notification.                                                  and

              ●	   Inadequate Grants Management. Both the grants             ●	    revisits the circumstances surrounding the review
                   management office and the program office failed to             and approval of the scripts produced by Finger
                   convey to Finger Lakes key information about                   Lakes under joint Smithsonian/NOAA sponsorship
                   requirements for tracking and reporting incurred               and determines whether NOAA’s actions resulted
                   costs.                                                         in an unauthorized commitment of $50,000.




                                                                        32
DOC OIG SAR SEPT 09.qxd   12/1/09   2:52 PM   Page 33




                         NATIONAL

                  TELECOMMUNICATIONS AND

                INFORMATION ADMINISTRATION


              T
                      he National Telecommunications and Information Administration serves as the executive branchs’
                      principal advisor to the President on domestic and international telecommunications and information
                      policy issues. NTIA manages the federal use of the electromagnetic spectrum; provides grants for
              national information and public broadcasting infrastructure projects; and performs telecommunications
              research and engineering. It works to enhance citizens’ access to cable television, telephone, and other
              telecommunications services; and educates state and local governments and other entities on ways to use
              information technology and telecommunications more effectively.



              Public Safety Interoperable                                   years, of a representative sample of at least 25 states
                                                                            or territories receiving PSIC grants. During this
              Communications Grant                                          semiannual period, we audited costs claimed by grant
              Awards: OIG Begins Required                                   recipients in Louisiana (our first audit under this
              Financial Audits                                              requirement) and Texas to determine whether they
                                                                            complied with NTIA PSIC grant guidelines and the
              The Digital Television and Public Safety Act of 2005          DHS award terms and conditions.
              authorized NTIA, in consultation with the
              Department of Homeland Security (DHS), to                     Louisiana PSIC Grant Award
              implement the PSIC program—a $1 billion one­
              time, formula-based matching grant program                    No. 2007-GA-H7-0014
              intended to enable public safety agencies to establish        (DEN-19427)
              interoperable emergency communications systems
              using reallocated radio spectrum. NTIA required a             On September 30, 2007, NTIA awarded a
              minimum 20 percent matching share from                        $19,672,287 PSIC grant to the state of Louisiana.
              nonfederal sources for the acquisition and                    The governor of Louisiana designated the Governor’s
              deployment of communications equipment and for                Office of Homeland Security and Emergency
              management and administration costs. The award                Preparedness (GOHSEP) as Louisiana’s state
              period runs from October 1, 2007, to September 30,            administrative agency to apply for and administer
              2010, by which time all funds must be expended.               PSIC funds.

              The Implementing Recommendations of the 9/11                  Our audit covered the award period of October 1,
              Commission Act of 2007 requires the Commerce                  2007, through December 31, 2008, during which
              Inspector General to conduct financial audits, over 4         time GOHSEP claimed total costs of $7,749,964. In


                                                                       33
DOC OIG SAR SEPT 09.qxd      12/1/09    2:52 PM    Page 34




              National Telecommunications and Information Administration                 September 2009—Semiannual Report to Congress



              general, we found GOHSEP to be in compliance                            submitted within the required 30 days of the end of
              with requirements and on track to complete the                          the quarter, its last three financial status reports
              project on time.                                                        were submitted in a timely manner. We encouraged
                                                                                      GOHSEP to continue this pattern of timely
              Specifically, GOHSEP had                                                financial reporting.

              ●	   prepared an investment justification describing               Nevada PSIC Grant Award
                   how the grant funds would be used to improve
                   interoperable communications and ensure
                                                                                 No. 2007-GS-H7-0015
                   interoperability with other public safety agencies. It        (DEN-19431)
                   anticipates completing all investments on schedule
                   by the September 30, 2010, PSIC program                       On September 30, 2007, NTIA awarded a
                   deadline.                                                     $12,042,417 PSIC grant to the state of Nevada. The
                                                                                 governor of Nevada designated the Department of
              ●	   met the minimum 20 percent matching share                     Public Safety’s Division of Emergency Management
                   requirement in place from nonfederal sources for              (DEM) as Nevada’s state administrative agency to
                   acquiring and deploying interoperable equipment,              apply for and administer PSIC funds.
                   and managing and administering the projects, as
                   required by The Digital Television Transition and             Our audit covered the award period of October 1,
                   Public Safety Act, the PSIC Program Guidance and              2007, through December 31, 2008, during which
                   Application Kit, and the award’s special conditions.          time DEM claimed total costs of $605,113. In
                                                                                 general, we found DEM to be in compliance with
              ●	   complied with grant terms and conditions by                   requirements and on track to complete the project on
                   improving the timeliness of its financial reporting,          time because it
                   complying with the cash drawdown requirement
                   for drawing down funds 30 days prior to                       ●	   prepared an investment justification detailing the
                   expenditure or a disbursement, and complying                       individual communications projects that are
                   with the 80 percent pass-through requirement by                    intended to achieve meaningful and measurable
                   passing through $16.7 million, about 85 percent,                   improvements in interoperability and fill gaps
                   of the $19.7 million of PSIC federal funds to                      identified in the statewide communications
                   64 parishes.                                                       interoperability plan and anticipates completing all
                                                                                      investments on schedule by the September 30,
              ●	   claimed costs of $7,749,964 in its December 31,                    2010, PSIC program deadline;
                   2008, financial status report, which were
                   determined reasonable, allowable, and allocable               ●	   complied with grant terms and conditions by
                   according to PSIC grant regulations.                               submitting all of its financial status reports within
                                                                                      the required 30-day time period and complying
              We made no formal recommendations in our report,                        with the 80 percent pass-through requirement by
              but did identify ways to further enhance internal                       passing through $9.9 million, about 82 percent, of
              controls.                                                               the $12 million in PSIC federal funds;

              ●	   We suggested that GOHSEP’s interoperability                   ●    claimed costs of $605,113 in its December 31,
                   program office record the matching share in its                    2008, financial status report, which were
                   grant management system, which was                                 determined reasonable, allowable, and allocable
                   implemented prior to the end of our fieldwork.                     according to PSIC grant regulations; and

              ●	   Although our review of GOHSEP’s financial status              ●	   implemented several notable best practices in its
                   reports determined two of five reports were not                    administration of the PSIC program.




                                                                            34
DOC OIG SAR SEPT 09.qxd      12/1/09    2:52 PM   Page 35




              September 2009—Semiannual Report to Congress                 National Telecommunications and Information Administration



              However, we also determined that                                  conjunction with the Federal Emergency
                                                                                Management Agency Grant Programs Directorate,
              ●	   while DEM had committed its 20 percent match                 require DEM to
                   requirement, which equals $2.5 million, it had not
                   documented $1.29 million for two of its                      ●	   document all committed matches and demonstrate
                   investments; and                                                  that it has contributed the 20 percent matching
                                                                                     share for PSIC expenditures by the next quarterly
              ●	   DEM did not comply with cash drawdown                             financial status report; and
                   requirements, as required by PSIC regulations,
                   because it did not place $525,259 of drawdown                ●	   monitor cash drawdowns, put funds not spent
                   funds for three Strategic Technology Reserve                      within 30 days in an interest-bearing account, and
                   vehicles in an interest-bearing account. As a result,             return imputed interest of $5,348 to the U.S.
                   we determined imputed interest of $5,348 is due to                Department of Treasury.
                   the U.S. Department of the Treasury.

              We recommended that the NTIA Assistant
              Secretary for Communications and Information, in




                                                                           35
DOC OIG SAR SEPT 09.qxd   12/1/09   2:52 PM   Page 36
DOC OIG SAR SEPT 09.qxd   12/1/09    2:52 PM   Page 37




                 OFFICE OF INSPECTOR GENERAL


              T
                      he mission of the Office of Inspector General is to improve the programs and operations of the
                      Department of Commerce through independent and objective oversight. Through our audits,
                      inspections, performance evaluations, and investigations, we propose innovative ideas and constructive
              solutions that lead to positive changes for the Department. By providing timely, useful, and reliable
              information and advice to departmental officials, the administration, and Congress, our work helps improve
              Commerce management and operations as well as its delivery of services to the public.



              Office of Investigations                                       According to the terms of the plea agreements, the
                                                                             two conspirators are equally responsible for paying
                                                                             the full amount of the ordered restitution to the U.S.
              Former U.S. Patent and                                         Treasury. The former employee and her co­
              Trademark Office Employee                                      conspirator are scheduled for sentencing in the U.S.
              and Co-conspirator Pled                                        District Court for the Eastern District of Virginia in
                                                                             November 2009. Irregularities in refunds being made
              Guilty in $500,000                                             from the deposit account were first detected by new
              Embezzlement Scheme                                            management in USPTO’s Office of Financial
                                                                             Management. They reported the irregularities to
              On August 27, 2009, a former financial analyst for the         auditors from our Office of Audit and Evaluation. An
              USPTO pled guilty on charges of conspiracy to commit           ensuing investigation conducted by our Office of
              wire fraud in violation of 18 USC § 1349, in                   Investigations uncovered the full extent of the
              connection with an embezzlement scheme. This                   conspiracy and fraudulent acts which were reported
              followed the August 10, 2009, guilty plea of her co­           to the U.S. Attorney’s Office for the Eastern District
              conspirator, who was not affiliated with the federal           of Virginia for prosecution. (Washington Field Office)
              government. The former USPTO employee managed
              an account into which USPTO customers deposited                Employee Suspended for
              funds for the purpose of paying expenses incurred in
              processing their patent and trademark applications.
                                                                             Violation of Security
              From 1998 to 2005, the former employee transferred             Procedures
              funds from this account to accounts controlled by the
              co-conspirator. The former employee fraudulently               In April 2009, a Department of Commerce employee
              concealed the transfers by making them look like refund        was suspended for 7 days for attempting to bring
              payments to USPTO customers. Her co-conspirator                weapons into the Department’s Washington
              then paid a portion of the stolen funds back to her in         headquarters building and intentionally circumventing
              cash. The former employee engaged in 32 fraudulent             the security screening process. In July 2008, the
              transfers from USPTO totaling $534,338.55. Twenty-             employee was randomly selected for a security
              seven of the transactions, accounting for $451,252.17,         screening upon entering the facility. At the time, he
              involved the co-conspirator.                                   possessed a knife, an expandable baton, and Oleoresin
                                                                             Capsicum spray. Shortly after the inspection began,


                                                                        37
DOC OIG SAR SEPT 09.qxd   12/1/09    2:52 PM   Page 38




              Office of Inspector General                                         September 2009—Semiannual Report to Congress



              which included an x-ray of his bag, the employee               Office of Export Enforcement was indicted in the U.S.
              abruptly exited the building and proceeded to another          District Court for the Northern District of California
              entrance to gain access. Using some information that           for false statements and misuse of government
              was obtained during this process, he was identified and        computers. An OIG investigation revealed that he
              located with these items in his possession. The                unlawfully accessed an investigative computer database
              individual received a 7-day suspension for conduct             163 times, within a period of 56 days, in order to track
              unbecoming a federal employee, specifically the                the whereabouts of a woman with whom he had a
              intentional circumvention of security procedures. The          troubled romantic relationship. The former agent also
              incident also resulted in improved security procedures         tracked the whereabouts of the woman’s husband and
              and policy for the headquarters building after                 son. The former agent made several life-threatening
              coordinating with the Department’s Office of Security.         remarks to the woman, threatened to have her
              (Washington Field Office)                                      deported, and accessed the Treasury Enforcement
                                                                             Communications System, a secure, individually
              NOAA Employee Pled Guilty,                                     password-protected law enforcement tracking database
                                                                             usable only in the performance of official duties. When
              Sentenced on Wire Fraud                                        questioned by investigators and supervisors, the former
                                                                             agent lied about the number of occasions on which he
              In our March 2009 Semiannual Report, page 51, we               accessed the investigative computer database for
              reported that a NOAA Corps shipboard employee                  personal reasons.
              was fired for misuse of his government purchase
              card. During a November 2008 search warrant, the               On April 28, 2009, the subject was arrested and a
              employee’s personal racing motorcycle was seized               superseding information was filed, on which the
              and found to contain approximately $18,000 in                  former agent pled guilty to one count of violating 18
              aftermarket parts, purchased using his government              USC § 1030, which prohibits the misuse of
              purchase card. On April 1, 2009, the employee was              government computer databases. He was sentenced,
              indicted on one count of theft of government                   on August 12, 2009, to three years’ probation and to
              property in violation of 18 USC § 641 and 8 counts             pay a $1,000 fine and $25 special assessment. As
              of wire fraud in violation of 18 USC §1343. On June            special conditions of probation, he agreed to
              9, 2009, the employee pled guilty to one felony count          participate in psychological counseling at his own
              of wire fraud. Per the terms of the plea agreement, the        expense and to have no contact with the woman he
              other 8 counts of the indictment were dismissed. On            had threatened. (Atlanta Field Office)
              September 29, 2009, the former employee was
              sentenced to 4 months’ home detention and
              32 additional months of probation, and ordered to              Arrests, Indictments,
              pay a $100 special assessment, a $1,000 fine, and              Convictions, and Sentences
              $251.27 in restitution. That restitution supplements           Continued in International
              a prior administrative repayment of $17,472.17,
              previously made by the subject to NOAA. (Silver                Telemarketing Fraud Case
              Spring Resident Office)
                                                                             Results continue from our joint, international
                                                                             investigation, previously reported in multiple
              Former Bureau of Industry                                      Semiannual Reports, of a major international
              and Security Special Agent                                     telemarketing fraud scheme perpetrated by callers
              Arrested, Convicted, and                                       falsely identifying themselves as employees of the
                                                                             Department of Commerce and other federal
              Sentenced for Misuse                                           agencies. Callers told victims they had won huge
              of Position                                                    sweepstakes prizes in a national lottery sanctioned by
                                                                             the U.S. government. The victims were instructed to
              As reported in our September 2007 Semiannual Report,           use commercial wire transfer services to send
              page 50, a former criminal investigator with the BIS           payments of $1,500 to $4,500 to Costa Rica,


                                                                        38
DOC OIG SAR SEPT 09.qxd   12/1/09    2:52 PM    Page 39




              September 2009—Semiannual Report to Congress	                                                  Office of Inspector General



              purportedly for insurance and customs fees that were            Among the ongoing challenges she noted are issues
              required to retrieve their winnings. Many of those              relating to contracting, maps and address lists,
              defrauded made multiple transfers to the                        systems development, and enumerating hard-to­
              telemarketers, resulting in over $20 million in                 count populations.
              identified losses to U.S. residents.
                                                                              The testimony described our work monitoring the
              This reporting period, we logged an arrest,                     integrated communications campaign and the
              indictment, and conviction on charges of failing to             partnership program, which are part of the bureau’s
              report to prison and obstruction of justice against a           efforts to promote participation in the 2010 Census,
              conspirator in the scheme who had been previously               especially among traditionally hard-to-count
              convicted, then fled to Mexico rather than reporting            populations. Funded in part by Recovery Act funds,
              to federal prison as ordered. Two other participants            these activities include promotional materials, media
              pled guilty to charges related to their participation in        advertising, and outreach with national, regional,
              the fraud scheme, bringing the total convictions for            tribal, and local governments, business, and
              this 6-year investigation to 39. Sentences were                 nonprofit organizations.
              handed down against nine of the convicted subjects.
              The sentences imposed ranged from 3 to 50 years and             It also summarized the findings of our first quarterly
              monetary restitution was ordered totaling                       report to Congress, a requirement contained in the
              $38,166,392 for this reporting period, along with               Supplemental Appropriations Act of 2008, which
              over $20 million in financial forfeitures, fines, and           gave the bureau an additional $210 million to help
              special assessments. (Atlanta Field Office)                     cover spiraling 2010 decennial costs. OIG found
                                                                              problems with program management systems, risk
                                                                              management, and reporting transparency.
              Other OIG Activities                                            The testimony concluded by listing five major areas
                                                                              we will watch in the future:
              Principal Assistant Inspector
              General for Audit and                                           ●    the bureau’s evaluation of the quality of the master
                                                                                   address file and its plans for any subsequent
              Evaluation Testified on                                              improvement actions;
              Oversight of 2010 Decennial
              Census and Integrated                                           ●    the communications campaign’s effectiveness in
                                                                                   providing promotional materials and advertising
              Communications Campaign                                              that are timely, on message, and within budget;
              On September 22, 2009, the principal assistant                  ●    the effectiveness of the vastly increased partnership
              inspector general for audit and evaluation testified                 staff to promote outreach efforts to hard-to-count
              before a subcommittee of the House Oversight and                     populations;
              Government Reform Committee on the Census
              Bureau’s management of the 2010 decennial census                ●	   the bureau’s progress in developing the automated
              and its integrated communications campaign. Her                      paper-based operations control system—needed to
              testimony before the Information Policy, Census, and                 manage enumerator assignments and track their
              National Archives Subcommittee also covered                          progress—on a highly compressed schedule; and
              findings from OIG’s first quarterly report to
              Congress on the 2010 census.                                    ●	   components of the enumeration process, including
                                                                                   nonresponse follow-up.
              Her testimony summarized continued weaknesses in
              key Census operations, the identification of which              (View the complete testimony at www.oig.doc.gov.)
              has been an ongoing OIG priority and the subject of
              more than 20 OIG reports and reviews since 2002.


                                                                         39
DOC OIG SAR SEPT 09.qxd   12/1/09    2:52 PM     Page 40




              Office of Inspector General                                          September 2009—Semiannual Report to Congress



              TABLES AND STATISTICS
              Statistical Overview

               TABLES                                                                                                     PAGE
               1. Investigative Statistical Highlights for this Period                                                      40
               2. Audit Resolution and Follow Up                                                                            41
               3. Audit and Evaluation Statistical Highlights for this Period                                               41
               4. Audits with Questioned Costs                                                                              41
               5. Audits with Recommendations that Funds Be Put to Better Use                                               42
               APPENDIXES
               A. Report Types this Period                                                                                  43
                    A-1. Performance Audits                                                                                 43
                    A-2. Financial Assistance Audits                                                                        43
                    A-3. Evaluations and Inspections                                                                        44
               B. Processed Audit Reports                                                                                   45
                    B.1. Processed Reports with Audit Findings                                                              46


              Table 1. Investigative Statistical Highlights for this Period

               Criminal Investigative Activities
                    Arrests                                                                                                 3
                    Indictments and informations                                                                            5
                    Convictions                                                                                             6
                    Personnel actions                                                                                       3
                    Fines, restitution, judgments                                                                     $58,154,431
               Allegations Processed
                    Accepted for investigation                                                                              18
                    Referred to operating units                                                                             36
                    Evaluated but not accepted for investigation or referral                                                27
               Total                                                                                                        81



              Audit Resolution and Follow-Up

              The Inspector General Act Amendments of 1988                    Department Administrative Order 213-5, Audit
              require us to present in this report those audits issued        Resolution and Follow-up, provides procedures for
              before the beginning of the reporting period (April 1,          management to request a modification to an approved
              2009) for which no management decision had been                 audit action plan or for a financial assistance recipient
              made by the end of the period (September 30, 2009).             to appeal an audit resolution determination. The
              Nine audit reports remain unresolved for this                   following table summarizes modification and appeal
              reporting period (see page 47).                                 activity during the reporting period.


                                                                         40
DOC OIG SAR SEPT 09.qxd         12/1/09      2:52 PM       Page 41




              September 2009—Semiannual Report to Congress	                                                                    Office of Inspector General



              Table 2. Audit Resolution and Follow-Up

                   Report Category                                                      Modifications                                   Appeals
                   Actions pending (April 1, 2009)                                              0                                           1
                   Submissions                                                                  0                                           2
                   Decisions                                                                    0                                           1
                   Actions pending (September 30, 2009)                                         0                                           2



              Table 3. Audit and Evaluation Statistical Highlights for this Period


                   Questioned Costs                                                                                                  $1,812,310
                   Value of audit recommendations that funds be put to better use                                                           5,348
                   Value of audit recommendations agreed to by management                                                                414,736



              Table 4. Audits with Questioned Costs

                                                                                                                Questioned                  Unsupported
                   Category                                                                  Number               Costs                        Costs
                   A.      Reports for which no management decision
                           had been made by the beginning of the
                           reporting period                                                      14              $27,616,026               $5,475,953
                   B.      Reports issued during the reporting period                               8               1,812,310                    77,881
                   Total reports (A+B) requiring a management
                   decision during the period1                                                   22               29,428,336                 5,553,834
                   C.      Reports for which a management decision
                           was made during the reporting period2                                    6               1,294,995                   487,055
                                 i. Value of disallowed costs                                                         247,449                    99,850
                                 ii. Value of costs not disallowed                                                  1,065,797                   405,456
                   D.      Reports for which no management decision
                           had been made by the end of the
                           reporting period                                                      16               28,133,341                 5,066,779
              1	
                   Two audit reports included in this table are also included among reports with recommendations that funds be put to better use
                   (see table 4). However, the dollar amounts do not overlap.
              2	
                   In Category C, lines i and ii do not always equal the total line C because resolution may result in values greater than the original
                   recommendations.




                                                                                       41
DOC OIG SAR SEPT 09.qxd         12/1/09      2:52 PM       Page 42




              Office of Inspector General 	                                                       September 2009—Semiannual Report to Congress



              Table 5. Audits with Recommendations that Funds Be Put to Better Use

                   Report Category                                                                                           Number                Value
                   A.      Reports for which no management decision had been made by the
                           beginning of the reporting period                                                                      2           $1,180,782
                   B.      Reports issued during the reporting period                                                             1                   5,348
                   Total reports (A+B) requiring a management decision during the period1                                         3             1,186,130
                   C.      Reports for which a management decision was made during
                           the reporting period2                                                                                  1                 87,287
                                 i. Value of recommendations agreed to by management                                                               167,287
                                 ii. Value of recommendations not agreed to by management                                                                  0
                   D.      Reports for which no management decision had been made by the
                           end of the reporting period                                                                            2             1,098,843
              1	
                   Two audit reports included in this table are also included among reports with questioned costs (see table 3). However, the dollar amounts
                   do not overlap.
              2	
                   In Category C, lines i and ii do not always equal the total line C because resolution may result in values greater than the original
                   recommendations.



              Definitions of Terms Used in the Tables
              Questioned cost: a cost questioned by OIG because of (1) an alleged violation of a provision of a law,
              regulation, contract, grant, cooperative agreement, or other agreement or document governing the expenditure
              of funds; (2) a finding that, at the time of the audit, such cost is not supported by adequate documentation; or
              (3) a finding that an expenditure of funds for the intended purpose is unnecessary or unreasonable.
              Unsupported cost: a cost that, at the time of the audit, is not supported by adequate documentation.
              Questioned costs include unsupported costs.
              Recommendation that funds be put to better use: an OIG recommendation that funds could be used more
              efficiently if Commerce management took action to implement and complete the recommendation, including (1)
              reductions in outlays; (2) deobligation of funds from programs or operations; (3) withdrawal of interest subsidy
              costs on loans or loan guarantees, insurance, or bonds; (4) costs not incurred by implementing recommended
              improvements related to Commerce, a contractor, or a grantee; (5) avoidance of unnecessary expenditures
              identified in preaward reviews of contracts or grant agreements; or (6) any other savings specifically identified.
              Management decision: management’s evaluation of the findings and recommendations included in the audit
              report and the issuance of a final decision by management concerning its response.




                                                                                       42
DOC OIG SAR SEPT 09.qxd   12/1/09   2:52 PM    Page 43




              September 2009—Semiannual Report to Congress                                   Office of Inspector General




              Appendix A. Report Types this Period

               Type                                        Number of Reports                Appendix Number
               Performance audits                                    1                               A-1
               Financial assistance audits                           3                               A-2
               Evaluations and inspections                           9                               A-3
               Total                                              13


              Appendix A-1. Performance Audits

                                                                                                      Funds to Be Put
               Report Title                                     Report Number          Date Issued     to Better Use
               Office of the Secretary
               Commerce Should Take Steps to Strengthen
               Its IT Security Workforce                       CAR-19569-9-0001         09/30/09             0


              Appendix A-2. Financial Assistance Audits

                                                                 Date Funds to Be Put Amount      Amount
               Report Title                    Report Number    Issued to Better Use Questioned Unsupported
               National Institute of Standards and Technology
               The University of Texas at
               Arlington                      DEN-18573-9-0001 06/29/09         0            534,362             0
               National Telecommunications and Information Administration
               Louisiana Public Safety
               Interoperable
               Communications Grant           DEN-19427-9-0001 07/24/09         0               0                0
               Nevada Public Safety
               Interoperable
               Communications Grant           DEN-19431-9-0001 09/29/09        5,348            0                0




                                                                43
DOC OIG SAR SEPT 09.qxd   12/1/09    2:52 PM   Page 44




              Office of Inspector General                                  September 2009—Semiannual Report to Congress



              Appendix A-3. Evaluations and Inspections

                                                                                                      Funds to Be Put
               Report Title                                         Report Number      Date Issued      to BetterUse
               Bureau of Industry and Security
               FY 2009 FISMA Assessment of BIS
               IT Infrastructure (BI) (BIS002)                          OSE-19574        09/30/09           —
               FY 2009 FISMA Assessment of Bureau Export
               Control Cyber Infrastructure, Version 2 (BECCI-2)        OSE-19575        09/30/09           —
               Census Bureau
               Observations and Address Listers’ Reports Provide
               Serious Indications That Important Address
               Canvassing Procedures Are Not Being Followed         OIG-19636-01         05/04/09           —
               2010 Census First Quarterly Report to Congress       OIG-19791-01         08/07/09           —
               Problems Encountered in the Large Block
               Operation Underscore the Need for Better
               Contingency Plans                                    OIG-19171-02         08/07/09           —
               National Institute of Standards and Technology
               FY 2009 FISMA Assessment of Application
               Systems and Databases (NIST 183-06)                      OSE-19511        08/07/09           —
               FY 2009 FISMA Assessment of Manufacturing
               Engineering Laboratory Managed
               Infrastructure (NIST 820-01)                             OSE-19512        08/07/09           —
               National Oceanic and Atmospheric Administration
               Concerns Over NOAA’s Oversight of Grants and
               Contract with Finger Lakes Production
               International Incorporated                               CAR-19201        07/02/09           —
               Office of Inspector General
               Commerce Experience with Past Relief and
               Recovery Initiatives Provides Best Practices and
               Lessons Learned on How to Balance Expediency
               with Accountability                                      ARR-19692        05/06/09           —




                                                                   44
DOC OIG SAR SEPT 09.qxd     12/1/09     2:52 PM      Page 45




              September 2009—Semiannual Report to Congress                                        Office of Inspector General



              Appendix B. Processed Audit Reports

                  The Office of Inspector General reviewed and accepted 147 audit reports prepared by independent
                  public accountants and local, state, and other federal auditors. The reports processed with questioned
                  costs, recommendations that funds be put to better use, and/or nonfinancial recommendations are listed
                  in Appendix B-1.

                Agency                                                                                    Audits
                Economic Development Administration                                                          53
                Minority Business Development Agency                                                          1
                National Institute of Standards and Technology*                                              20
                National Oceanic and Atmospheric Administration                                              35
                National Telecommunications and Information Administration                                    5
                Multi-Agency                                                                                 33
                Total                                                                                       147
              * Includes 16 Advanced Technology Program (ATP) program-specific audits.




                                                                               45
DOC OIG SAR SEPT 09.qxd   12/1/09    2:52 PM   Page 46




              Office of Inspector General                                 September 2009—Semiannual Report to Congress



              Appendix B-1. Processed Reports with Audit Findings

                                                                              Funds to
                                                                 Date          Be Put      Amount      Amount
               Report Title                     Report Number    Issued     to Better Use Questioned Unsupported
               Economic Development Administration
               North Central
               Economic Development
               Association, Inc., MN           ATL-09999-9-3486 06/03/09         0              0             0
               Eight Northern
               Indian Pueblos
               Council, Inc., NM               ATL-09999-9-3491 07/14/09         0           $21,749       $21,749
               SEDA Council of
               Governments, PA                 ATL-09999-9-3495 07/14/09         0              0             0
               Community Development
               Corporation of
               Fort Wayne, IN                  ATL-09999-9-3571 08/14/09         0           892,834          0
               Boston Local Development
               Corporation, MA          ATL-09999-9-3535 09/01/09                0           25,990        25,990
               National Institute of Standards & Technology
               Hexatech, Inc., NC              ATL-09999-9-3638 09/23/09         0           166,021          0
               Origen Therapeutics,
               Inc., CA                        ATL-09999-9-3583 09/23/09         0           106,757          0
               National Oceanic & Atmospheric Administration
               Commonwealth of
               Puerto Rico,
               Dept of Natural and
               Environment Resources           ATL-09999-9-3471 07/14/09         0           30,142        30,142
               National Telecommunications & Information Administration
               Community Television of
               Southern California             ATL-09999-9-3530 09/10/09         0           34,455           0




                                                                46
DOC OIG SAR SEPT 09.qxd   12/1/09   2:52 PM   Page 47




              September 2009—Semiannual Report to Congress                                            Office of Inspector General




              Audits Unresolved for More                                   NIST
              Than 6 Months
                                                                           Manufacturing Extension
                                                                           Partnership Program
              Census Bureau                                                In our March 2009 Semiannual Report, we discussed
                                                                           our audits of the operations of three centers, located
              ITS Services, Inc.                                           in South Carolina, Florida, and Massachusetts, that
              In our March 2005 Semiannual Report, we reported             received cooperative agreements under the NIST
              that 3 of the 32 task orders awarded under an IT             MEP program. Our audits questioned over $20
              services contract were audited to determine whether          million in costs claimed. Resolution has proven to be
              the costs billed by the firm were reasonable,                complex, and NIST has not provided us with the
              allowable, and allocable under contract terms and            initial audit resolution proposals. (ATL-18567, ATL­
              conditions and federal regulations. We found that the        18568, DEN-18135)
              firm had failed to comply with numerous contract
              and federal requirements, and questioned more than
                                                                           NOAA
              $8.5 million in direct labor and reimbursable costs.
                                                                           Alaska Eskimo Whaling Commission
              Computer & High Tech
                                                                           As reported in our March 2009 Semiannual Report, a
              Management, Inc.
                                                                           single audit review of this NOAA grant questioned
              In our September 2005 Semiannual Report, we
                                                                           costs totaling $66,353 in expenditures that were not
              reported the results of audits of 2 of the 21 task
                                                                           adequately documented. This audit remains
              orders for another firm providing IT services to
                                                                           unresolved because we requested that NOAA
              Census. We sought to determine whether the firm
                                                                           postpone its submission of an audit resolution
              had complied with contract terms and conditions
                                                                           proposal. (ATL-09999-8-3238)
              and federal regulations and had billed Census for
              work performed in accordance with specifications of
              the task order. We found that the firm failed to
              comply with numerous contract and federal
              requirements, which caused us to question more
              than $10.7 million in direct labor and other
              reimbursable costs. We have suspended audit
              resolution on both of these contract audits pursuant
              to an agreement with Census.




                                                                      47
DOC OIG SAR SEPT 09.qxd   12/1/09    2:52 PM    Page 48




              Office of Inspector General                                          September 2009—Semiannual Report to Congress



              REPORTING REQUIREMENTS
              The Inspector General Act of 1978, as amended, specifies reporting requirements for semiannual reports. The
              requirements are listed below and indexed to the applicable pages of this report.

               Section                       Topic                                                                         Page
               4(a)(2)                       Review of Legislation and Regulations                                        47-48
               5(a)(1)                       Significant Problems, Abuses, and Deficiencies                               17-39
               5(a)(2)                       Significant Recommendations for Corrective Action                            17-39
               5(a)(3)                       Prior Significant Recommendations Unimplemented                                47
               5(a)4                         Matters Referred to Prosecutive Authorities                                    40
               5(a)(5) and 6(b)(2)           Information or Assistance Refused                                              47
               5(a)(6)                       Listing of Audit Reports                                                     43-45
               5(a)(7)                       Summary of Significant Reports                                               17-39
               5(a)(8)                       Audit Reports—Questioned Costs                                                 41
               5(a)(9)                       Audit Reports—Funds to Be Put to Better Use                                    42
               5(a)(10)                      Prior Audit Reports Unresolved                                                 49
               5(a)(11)                      Significant Revised Management Decisions                                       49
               5(a)(12)                      Significant Management Decisions with which OIG Disagreed                      49


              Section 4(a)(2): Review of Legislation                          reports for which corrective action has not been
                                                                              completed. Section 5(b) requires that the Secretary
              and Regulations
                                                                              transmit to Congress statistical tables showing the
                                                                              number and value of audit reports for which no final
              This section requires the inspector general of each
                                                                              action has been taken, plus an explanation of the
              agency to review existing and proposed legislation
                                                                              reasons why recommended action has not occurred,
              and regulations relating to that agency’s programs
                                                                              except when the management decision was made
              and operations. Based on this review, the inspector
                                                                              within the preceding year.
              general is required to make recommendations in the
              semiannual report concerning the impact of such
                                                                              To include a list of all significant unimplemented
              legislation or regulations on the economy and
                                                                              recommendations in this report would be
              efficiency of the management of programs and
                                                                              duplicative. Information on the status of any audit
              operations administered or financed by the agency or
                                                                              recommendations can be obtained through OIG’s
              on the prevention and detection of fraud and abuse
                                                                              Office of Audit and Evaluation.
              in those programs and operations. Comments
              concerning legislative and regulatory initiatives
              affecting Commerce programs are discussed, as                   Sections 5(a)(5) and 6(b)(2):
              appropriate, in relevant sections of the report.                Information or Assistance Refused

              Section 5(a)(3): Prior Significant                              These sections require a summary of each report to
                                                                              the Secretary when access, information, or assistance
              Recommendations Unimplemented
                                                                              has been unreasonably refused or not provided. There
                                                                              were no instances during this semiannual period and
              This section requires identification of each significant
                                                                              no reports to the Secretary.
              recommendation described in previous semiannual


                                                                         48
DOC OIG SAR SEPT 09.qxd   12/1/09   2:52 PM   Page 49




              September 2009—Semiannual Report to Congress                                            Office of Inspector General



              Section 5(a)(10): Prior Audit                                must be consulted and must approve in advance any
                                                                           modification to an audit action plan. One
              Reports Unresolved
                                                                           modification to an action plan was decided this
                                                                           period. For financial assistance audits, OIG must
              This section requires a summary of each audit
                                                                           concur with any decision that would change the audit
              report issued before the beginning of the reporting
                                                                           resolution proposal in response to an appeal by the
              period for which no management decision has been
                                                                           recipient. The decisions issued on the two appeals of
              made by the end of the reporting period (including
                                                                           audit-related debts were finalized with the full
              the date and title of each such report), an
                                                                           participation and concurrence of OIG.
              explanation of why a decision has not been made,
              and a statement concerning the desired timetable
              for delivering a decision on each such report. There         Section 5(a)(12): Significant
              were one NOAA and five Census reports more than              Management Decisions with Which
              6 months old.
                                                                           OIG Disagreed
              Section 5(a)(11): Significant Revised                        This section requires information concerning any
              Management Decisions                                         significant management decision with which the
                                                                           inspector      general    disagrees.   Department
              This section requires an explanation of the reasons          Administrative Order 213-5 provides procedures for
              for any significant revision to a management decision        elevating unresolved audit recommendations to
              made during the reporting period. Department                 higher levels of Department and OIG management,
              Administrative Order 213-5, Audit Resolution and             including their consideration by an Audit Resolution
              Follow-up, provides procedures for revising a                Council. During this period no audit issues were
              management decision. For performance audits, OIG             referred to the council.




                                                                      49
                                 AIG for Audit
                                 and Evaluation

                                                                        Recovery Act
         Audit
                                                                         Oversight
        Services
                                                                         Task Force




                                                                           AIG for
      AIG for
                                          AIG for                      Economic and
 System Acquisition
                                          Audits                     Statistical Program
   and IT Security
                                                                         Assessment




Inspector General................................................... (202) 482-4661       Office of Counsel.................................................. (202) 482-5992
Legislative and Public Affairs................................ (202) 482-4106             Office of Investigations......................................... (202) 482-0300
Office of Audit and Evaluation ............................. (202) 482-2754




Telephone............................................................... (202) 482-4106
E-mail........................................................... oigweb@oig.doc.gov

                                                                                          E-mail............................................................ hotline@oig.doc.gov
      Room 7898 C HCHB
1401 Constitution Avenue, N.W.
   Washington, D.C. 20230
       www.oig.doc.gov
